<html>
<title> - NOMINATIONS FOR THE DEPARTMENT OF COMMERCE AND DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 108-1000]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 108-1000

                          NOMINATIONS FOR THE
                         DEPARTMENT OF COMMERCE
                    AND DEPARTMENT OF TRANSPORTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-623 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001









       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel





















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 4, 2004....................................     1
Statement of Senator McCain......................................     1
    Prepared statement...........................................     1
    Prepared statement of Hon. Bill Frist, U.S. Senator from 
      Tennessee..................................................     6

                               Witnesses

Buttrey, W. Douglas, Memphis, Tennessee..........................    26
    Prepared statement...........................................    26
    Biographical information.....................................    27
Cochran, Hon. Thad, U.S. Senator from Mississippi................     2
Combs, Linda Morrison, Nominee for the Position of Assistant 
  Secretary for Budget, Programs, and Chief Financial Officer, 
  U.S. Department of Transportation..............................    17
    Prepared statement...........................................    17
    Biographical information.....................................    18
Dole, Hon. Elizabeth, U.S. Senator from North Carolina...........     4
Ford, Jr., Hon. Harold E., U.S. Representative from Tennessee....     5
Keenum, Rhonda N., Senior Advisor to the Under Secretary, 
  International Trade Administration, U.S. Department of Commerce     8
    Prepared statement...........................................     9
    Biographical information.....................................    10
Mulvey, Frank, Staff Director, U.S. House of Representatives, 
  Committee on Transportation and Infrastructure, Subcommittee on 
  Railroads......................................................    33
    Prepared statement...........................................    35
    Biographical information.....................................    36
Oberstar, Hon. James L., U.S. Representative from Minnesota......     3
Wicker, Hon. Roger F., U.S. Representative from Mississippi......     3

 
                          NOMINATIONS FOR THE
                         DEPARTMENT OF COMMERCE
                    AND DEPARTMENT OF TRANSPORTATION

                              ----------                              


                        THURSDAY, MARCH 4, 2004

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. This hearing will come to order. We'll have 
the hearing come to order, please.
    We will hear from our panel: Ms. Rhonda Keenum, Senior 
Advisor to the Under Secretary for International Trade 
Administration, U.S. Department of Commerce; Dr. Linda Combs, 
Advisor to the Secretary, U.S. Department of Transportation; 
Mr. W. Douglas Buttrey, of Memphis, Tennessee; and Dr. Frank 
Mulvey, Staff Director, U.S. House of Representatives, 
Committee on Transportation and Infrastructure, Subcommittee on 
Railroads, but first we would like to hear from our 
distinguished colleagues from the Senate and the House, who are 
here on behalf of the nominees.
    And we always try to begin with the oldest----
    [Laughter.]
    The Chairman.--and it's pretty obvious. But he's not here.
    [Laughter.]
    The Chairman. Actually, if it's agreeable, we'll begin with 
our colleagues from the House, if that's OK, since they--oops, 
here he is, the oldest.
    [Laughter.]
    The Chairman. Senator Cochran, we appreciate you being here 
today. I know you're here on behalf of the nominee, Ms. Keenum, 
and we know how busy your schedule is, so if you would please 
proceed--we're honored to have you here.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    Good afternoon. The Commerce Committee meets today to consider the 
qualifications of four individuals who have been nominated by the 
President to serve the Nation in very important posts.
    This Committee takes its advice and consent role seriously. It is 
our responsibility to ensure that the nominees fully understand their 
duties and are capable and committed to fulfilling the mission 
requested of them. I note that each of the nominees has responded in 
detail to the Committee's requests for biographical and financial data. 
I intend to move your nominations in the near future.
    Today's nominees include Ms. Rhonda Keenum, nominated by the 
President to serve as Assistant Secretary and Director General of the 
United States and Foreign Commercial Service with the Department of 
Commerce. If confirmed, Ms. Keenum will be responsible for overseeing 
and implementing the export promotion activities of the U.S. Commercial 
Service within the International Trade Administration.
    Dr. Linda Combs has been nominated by the President to serve as 
Assistant Secretary for Budget and Programs and Chief Financial Officer 
for the Department of Transportation. If confirmed, Dr. Combs will 
advise the Secretary on the development, review, and presentation of 
the Department's budget resource requirements, and on the evaluation 
and oversight of the Department's programs.
    Finally, we have Mr. Douglas Buttrey and Dr. Francis Mulvey, who 
have been nominated by the President to serve as Members of the Surface 
Transportation Board (STB). The STB's primary function is to oversee 
the economic regulation of the Nation's freight railroads. The Staggers 
Rail Act of 1980, which partially deregulated the freight railroads, 
has produced positive benefits overall, but there is a perceived lack 
of regulatory relief available to shippers at the STB. Last year, 
during Committee consideration of legislation to reauthorize the STB, 
an amendment sponsored by myself and Senator Hollings was adopted to 
direct the STB to issue expedited procedures for small rate cases 
within 180 days following enactment.
    For the past year, the only confirmed member of the Board has been 
Chairman Roger Nober, who has been reluctant to initiate major 
rulemakings acting alone. I hope my colleagues will confirm these 
nominees quickly so that longstanding shipper issues can finally be 
addressed by the Board.
    I thank the nominees for being here today. I know your nominations 
are a great honor, and that your families are very proud. Please feel 
free to introduce any family members who are present here today before 
you begin your remarks.

                STATEMENT OF HON. THAD COCHRAN, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Cochran. Mr. Chairman, thank you very much. I 
appreciate the opportunity to be here in your Committee today.
    I'm here to recommend, to the Committee, Rhonda Keenum, for 
confirmation as Assistant Secretary of Commerce and Director 
General of the United States and Foreign Commercial Service. I 
have known the nominee for 15 years. In the spirit of full 
disclosure, I must tell you, she is a close friend of mine, and 
her husband, Mark Keenum, is my chief of staff. I also know her 
as a very talented marketing and public relations manager, with 
skills that will enable her to do a superb job in this 
important office.
    She has a strong sense of responsibility and 
accountability. Her proven management capabilities will be very 
useful as she works to discharge the responsibilities of this 
office. I can attest to her good character, her capacity for 
hard work, and her willingness to expend whatever energy is 
required to accomplish a goal.
    I hope you can approve this nomination expeditiously. The 
Department of Commerce will benefit greatly from her immediate 
assumption of the duties of this important office.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Cochran. And we 
know you have a busy schedule. I know Ms. Keenum and the rest 
of us appreciate you being here. Thank you, sir.
    Since we are giving great appreciation to Ms. Keenum, we 
might as well let Mr. Wicker speak on her behalf. I remind you 
of the words of my dear and beloved friend, Morris Udall, who 
said, ``Everything that can be said on the subject has been 
said, only not everyone has said it.''
    [Laughter.]
    The Chairman. Welcome, Congressman Wicker. Thank you for 
coming here on behalf of Ms. Keenum.

              STATEMENT OF HON. ROGER F. WICKER, 
              U.S. REPRESENTATIVE FROM MISSISSIPPI

    Mr. Wicker. It may be, Mr. Chairman, that Ms. Keenum's 
future title will be longer than my testimony.
    [Laughter.]
    The Chairman. Thank you.
    Mr. Wicker. I simply would echo the recommendation of 
Senator Cochran. I've known her 10 years, and what I can add is 
that she actually was a member of my staff when I first came to 
the House of Representatives in 1995. She is a joy to work 
with. I can say--both from the staff that we organized during 
that first Congress, and also from the constituent standpoint--
I think she will serve the public well, she'll be a credit to 
the Administration, and she has my highest recommendation.
    And I thank you.
    The Chairman. Thank you very much, Congressman Wicker, and 
thank you for your continued outstanding service to the people 
of Mississippi. Thank you.
    Mr. Wicker. Thank you.
    The Chairman. Congressmen Oberstar?
    Mr. Oberstar. Thank you, Mr. Chairman.
    The Chairman. And then Senator Dole, I think, would be 
next, if that would be all right.

             STATEMENT OF HON. JAMES L. OBERSTAR, 
               U.S. REPRESENTATIVE FROM MINNESOTA

    Mr. Oberstar. Thank you for the opportunity to come to this 
Committee, and thank you for hearing the nomination of Frank 
Mulvey, as well as others; in Frank's case, for the Surface 
Transportation Board.
    My acquaintance with Dr. Mulvey goes back to the mid-1980s, 
when I chaired the Investigations and Oversight Subcommittee in 
the House, and we were doing a great deal of work on aviation 
safety and maintenance, security, but also other transportation 
issues, and turned to the General Accounting Office to do basic 
research work for our--in preparation for our hearings, and to 
determine, in many cases, whether there was a justification to 
hold a hearing. And I can say that, at the time, Newt Gingrich 
was the ranking Republican on the Subcommittee. He and I spent 
a great deal of time working together and benefiting from 
research that was done under Dr. Mulvey's direction, or by him 
personally and directly.
    He has a Ph.D. in railroad economics from the University of 
Washington State. He did his undergraduate work at NYU 
University, and a master's degree in economics from Berkeley.
    But the work that he did for us ranged over an 
extraordinary breadth of issues--airline CRS competition 
problems that we were inquiring into, airline alliances in the 
earliest stage to see whether the public was getting its due 
benefit from these airline alliances, and code-sharing among 
airlines, domestic and foreign, again to see whether there 
really was competition. He directed the first study on the 
safety effects of the 55 mile-an-hour speed limit on highway 
safety and speed laws. He spent a great deal of time on inner 
city bus competition and unfair practices, which led to 
hearings that our Subcommittee conducted; highway safety, high-
speed ground transportation work that was done in early 1994, 
laying the groundwork for legislative language that we included 
in ISTEA and TEA-21; he did an extensive inquiry into the 
structure, continuity, and viability of our transportation 
trust funds; he also did work for us on inter-urban helicopter 
services; and during a time when there was a great failure in 
one of the locks on the St. Lawrence seaway, his team at GAO 
did an inquiry into the intermodal impacts of Great Lakes-St. 
Lawrence seaway season extension work.
    I consider Frank Mulvey's work on our Committee staff at 
the Committee of Transportation Infrastructure for the last 4 
years as truly a renaissance man in transportation, with a 
remarkable sweep of intellect, as well as intellectual 
curiosity. He is the kind of person the Surface Transportation 
Board needs to handle those complex issues where competition 
and the public interest clash often with interests of the 
corporate sector, and Frank is the kind of independent, 
objective mind that we need to bring to bear on those issues. 
He can render for the Congress and for the traveling public a 
fair judgment.
    The Chairman. Thank you very much, Congressman Oberstar. 
Those are high praises, indeed. And thank you for coming over 
today. Thank you.
    Mr. Oberstar. It's been a pleasure working with you, Mr. 
Chairman, for many years on----
    The Chairman. Thank you, sir.
    Mr. Oberstar.--transportation issues.
    The Chairman. It's a pleasure to welcome Senator Dole. 
Thank you, Senator Dole.

               STATEMENT OF HON. ELIZABETH DOLE, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Dole. Thank you, Mr. Chairman.
    And I'm pleased today to introduce a fellow North 
Carolinian, Linda Combs, who's been nominated by President Bush 
to be Assistant Secretary for Budget Programs and Chief 
Financial Officer of the Department of Transportation.
    Linda Combs has an impeccable record of public service that 
is as diverse as it is impressive. She has served in management 
roles at the Department of Education, Environmental Protection 
Agency, Veterans Affairs, and the Department of the Treasury.
    Mr. Chairman, as the former Secretary of Transportation, I 
understand the unique qualifications required for this 
position. A candidate must possess experience not only in 
management, but also an adept ability to practice sound fiscal 
responsibility. As the first Chief Financial Officer at the 
Department of the Treasury and, most recently, the Chief 
Financial Officer at the Environmental Protection Agency. Dr. 
Combs is extraordinarily well prepared to meet this challenge. 
She has answered the call to public service, and she 
understands this service to be a noble endeavor with many 
challenges.
    Throughout her career, Linda Combs has demonstrated the 
highest standards of honesty, fairness, and integrity, and I'm 
very proud to call her a dear friend.
    Mr. Chairman, this fine North Carolinian will join an 
outstanding team at the Department of Transportation, and serve 
Secretary Mineta and President Bush with honor and dignity. 
Thank you for the opportunity to introduce Linda Combs today, 
and for your consideration of her nomination.
    Thank you.
    The Chairman. Thank you, Senator Dole. And thank you for 
taking the time from your busy schedule to be here in behalf of 
this highly qualified person.
    Senator Dole. Thank you.
    The Chairman. Thank you very much.
    Now, I'd like to ask our nominees, Ms. Rhonda Keenum--oh, 
certainly we are pleased to welcome the Honorable Harold Ford, 
of the U.S. House of Representatives famous junketeers with us 
today.
    [Laughter.]
    The Chairman. Congressman Ford?

            STATEMENT OF HON. HAROLD E. FORD, JR., 
               U.S. REPRESENTATIVE FROM TENNESSEE

    Mr. Ford. Mr. Chairman, thank you. I'm delighted to be 
joined at the table by Mr. Doug Buttrey.
    Mr. Chairman, I thank you, again, for having me on the 
trip, with you and my friends and your colleagues in the 
Senate, to Iraq and to Israel, and you went on, obviously, to 
Jordan, and you went on to other countries, as well. I was 
particularly delighted to be the only House Member, although I 
was chagrined to have to carry people's bags all the time.
    [Laughter.]
    Mr. Ford. So I appreciate you----
    The Chairman. But you did such a fine job.
    [Laughter.]
    The Chairman. I'm always pleased to be in your company, Mr. 
Ford. I mean that.
    Mr. Ford. Thank you, sir. And the feeling is mutual.
    I bring greetings to you from Mr. Buttrey's former boss and 
the leader of our business community back home and, for that 
matter, around the country, Fred Smith, to you, to Ranking 
Member Hollings, and to all the Members of the Committee. Thank 
you for giving me the chance to say hello, and welcome and 
introduce one of our city's finest residents, my friend, Doug 
Buttrey. His wife, I know, is here as well, if she would just 
raise her hand, always delighted to see her, as well. We're 
from the country, so we like doing those things, Mr. Chairman.
    As you know, Doug Buttrey works as an independent 
transportation consultant now after his many years of service 
at FedEx and its Government Affairs Office, where he was a 
senior representative. Before that, he was a managing director 
for properties and facilities at Airport Relations for FedEx, 
so he brings a tremendous understanding of the situations that 
arise on the ground in our transportation industry. He also has 
familiarity with the Congress and government, having worked at 
the Council for the Senate Aviation Subcommittee, under former 
Senator James Pearson.
    A graduate of the Tennessee Technological University and a 
graduate of the University of Memphis School of Law, he is, 
indeed, a son of Tennessee and a proud citizen, dedicated 
citizen of our city. A devoted member of White Station Church 
of Christ, where he is in charge of the legal ministry there, 
active throughout our community, and we thank he and his family 
for that.
    His wealth of experience in the transportation industry, 
Chairman McCain, whether it's by plane, train, or automobile, 
will benefit him greatly in what we hope will be his new post 
on the Surface Transportation Board.
    As I close, Mr. Chairman, coming from FedEx, a company that 
has built its reputation on customer service, it is our hope 
and belief that Mr. Buttrey will bring that same commitment to 
shippers and receivers and consumers as a member of the Surface 
Transportation Board.
    With that, I'm pleased to welcome and express my strong 
support for my fellow Memphian and constituent and friend, Mr. 
Doug Buttrey.
    With that, I----
    The Chairman. Thank you very much.
    Mr. Ford.--thank you, Mr. Chairman.
    The Chairman. Thank you, Congressman Ford, and thank you 
for taking the time to come over today in behalf of this fine 
witness. Thank you.
    Mr. Ford. Thank you, sir.
    The Chairman. Now I'd like to ask Ms. Rhonda Keenum and Dr. 
Linda Combs, Mr. Douglas Buttrey, and Dr. Frank Mulvey to take 
seats, please.
    And while they're doing that, I will have inserted in the 
record a statement by Senator Bill Frist regarding the 
nomination of Mr. Douglas Buttrey to be a member of the Surface 
Transportation Board. It's a very laudable statement, and it'll 
be included in the record.
    [The prepared statement of Senator Frist follows:]

   Prepared Statement of Hon. Bill Frist, U.S. Senator from Tennessee
    Mr. Chairman, I would like to thank you and the members of the 
Committee for considering William Douglas Buttrey's nomination to serve 
as a Member of the Surface Transportation Board. I personally 
recommended Mr. Buttrey for this position, and I do not believe there 
is a more qualified candidate than my fellow Tennessean and friend here 
today.
    Doug Buttrey spent his entire career working with the 
transportation industry, and I strongly support his nomination to serve 
on the Surface Transportation Board. Mr. Buttrey understands the 
dynamics of regulatory and legislative decision making at the Federal 
and state levels, and he has consistently demonstrated his ability to 
implement sound policies and achieve positive results.
    Doug began his career in Washington working for the Civil 
Aeronautics Board. He then came to the United States Senate where he 
served as Counsel for the Commerce, Science and Transportation 
Committee's Aviation Subcommittee. After a successful and highly 
praised tenure with the Subcommittee, Doug joined the Federal Express 
Corporation, where he ultimately served as the company's Senior 
Government Affairs Representative.
    Doug Buttrey's many years of experience in both the government and 
the private sector make him uniquely qualified to serve as a member of 
the Surface Transportation Board. Board members will be faced with many 
challenges, and Doug's experiences will help him make informed 
decisions. Throughout his career, Doug has played a direct role in 
policy development and legislative and regulatory decision making. Doug 
understands the complexities of intergovernmental challenges, and he is 
well equipped to handle anything put before him.
    Again, I very much appreciate the Committee's consideration of Mr. 
Buttrey's nomination, and I look forward to his confirmation by the 
full Senate.

    The Chairman. Now, for the most important part of this 
hearing, Ms. Keenum, if you would introduce your family who is 
with you here today.
    Ms. Keenum. Mr. Chairman, thank you, and good afternoon. 
I'd like to introduce my husband of 20 years, Mark Keenum, over 
my right shoulder. And thank you for letting me do that.
    The Chairman. Welcome.
    Dr. Mulvey?
    Dr. Mulvey. Yes, I'd like to introduce my wife of 30 years 
next week, Petra Mulvey, my son Connor and his significant 
other, Tanya Jacobson.
    [Laughter.]
    The Chairman. Would you please stand? Thank you. Thank you, 
and welcome.
    Mr. Buttrey?
    Mr. Buttrey. Mr. Chairman, I'd like to introduce my wife 
Margaret, if she'd please stand right here--hopefully trump 
everyone else, we've been married for 35 years.
    [Laughter.]
    The Chairman. Welcome, Ms. Buttrey.
    Dr. Combs?
    Dr. Combs. Thank you, Mr. Chairman. And, yes, you do trump 
everyone else.
    [Laughter.]
    Dr. Combs. My husband, David Combs----
    The Chairman. Welcome.
    Dr. Combs.--of 33 years.
    [Laughter.]
    The Chairman. My old friend, Senator Alan Simpson, who used 
to be Senator, is one of the more entertaining, as he said he 
and his wife Ann had been married for 35 years. He said it was 
truly a religious experience. He said it was a living hell. I'm 
sure that that doesn't----
    [Laughter.]
    The Chairman.--that it doesn't apply to anyone here.
    [Laughter.]
    The Chairman. Welcome, Ms. Keenum, and please, we'd like to 
hear your opening statement.
    Ms. Keenum. Mr. Chairman, on that note----
    The Chairman. And could I just say welcome to the family 
members. I know this is a very proud time for all of you, and 
we share in your pride of the accomplishments and achievements 
of these fine people.
    Thank you. Please go ahead, Ms. Keenum.

        STATEMENT OF RHONDA N. KEENUM, SENIOR ADVISOR TO

            THE UNDER SECRETARY, INTERNATIONAL TRADE

          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Ms. Keenum. Thank you. Mr. Chairman and Members of the 
Committee, it is, indeed, an honor and privilege to come before 
you as the nominee for the position of Assistant Secretary and 
Director General of the United States and Foreign Commercial 
Service. I am humbled and honored that the President would 
nominate me for this role, and I'm eager to take on the 
challenge.
    I would first like to thank Senator Thad Cochran and 
Congressman Roger Wicker for their kind remarks. Both of these 
distinguished leaders mean a tremendous amount to me and my 
family, professionally and personally. I would also like to 
express my sincere thanks to Secretary of Commerce Donald 
Evans, former Deputy Secretary Samuel Bodman, and Under 
Secretary Grant Aldonas for their support of me and my 
nomination.
    What makes America the greatest Nation in the world is the 
entrepreneurial spirit of the American people, no matter what 
your background.
    Growing up in Mississippi, I was a first-hand observer of 
the power of that entrepreneurial spirit. My father, James 
Newman, left public service after almost a quarter of a century 
to pursue his dream of starting his own business. And pursue 
it, he did, risking limited family savings, stable employment, 
and my mom's sanity in the process. His risk and investment 
some 25 years ago continue to generate precious dividends in 
the tangible evidence of community jobs, interstate commerce, 
and income that even now, some 4 years after his death, 
provides a financial safety net that my family would not have 
otherwise had.
    This story, my story, illustrates the power of small 
businesses all over this great country. Small businesses create 
more than two out of every three new jobs, and generate about 
50 percent of our Nation's gross domestic product.
    In this time of great change in our domestic and 
international economies, it is imperative for our government to 
assist American businesses to obtain access for their products 
and services in the international marketplace. This is not only 
the mandate of the U.S. and Foreign Commercial Service, but 
also the dedicated focus of its programs and employees.
    The Commercial Services worldwide network achieves this 
goal every day by linking American suppliers with international 
buyers, advocating for their best interests with foreign 
governments, and ensuring a level playing field. The programs 
and expertise provided by the Commercial Service are critical 
to the success of American companies in competing and winning 
in global markets. I have observed the efforts of Commercial 
Service employees to assist American companies in often 
difficult circumstances, and have been impressed with their 
skills, dedication, and pride in public service.
    If confirmed, I commit to a continuous assessment of, and 
investment in, both the development of innovative trade 
programs and the complex network that delivers them. My goal 
will be ensure that the Commercial Service not only continues 
to meet the high expectations that our clients have of us, but 
that we exceed those expectations.
    If confirmed, I will look to maximize the synergies we have 
with state partners, as well as local partners, industry 
associations, and sister Federal partners to provide companies 
in all states with access to the tremendous opportunities 
available to them through exporting.
    If confirmed, I welcome the challenge to lead the trade 
promotion arm of the Federal Government. My two decades of work 
experience have been driven exclusively by client, constituent, 
and consumer accountability. Those years of managing public 
relations campaigns, leading field-based organizations, 
developing and adhering to complex budgets, building 
coalitions, and motivating and mentoring staff have prepared me 
for the myriad of opportunities ahead.
    If confirmed, I pledge to conduct myself with unwavering 
commitment, taking ownership of every action, standing up for 
the entrepreneurial ideas, like those of my father, and 
standing by the over 1600 dedicated public servants that have 
long made the Commercial Service an organization that leads, 
rather than follows.
    If confirmed, I will pursue the stewardship of the service 
with energy, integrity, accountability, and a diligent 
awareness that we are here to serve our clients, American 
businesses.
    Mr. Chairman, thank you for the opportunity to be here 
today. And I also want to take this opportunity to express my 
appreciation to family and friends. I'd be happy to answer any 
questions you might have, and welcome your comments.
    Thank you.
    [The prepared statement and biographical information of Ms. 
Keenum follow:]

  Prepared Statement of Rhonda N. Keenum, Senior Advisor to the Under 
   Secretary, International Trade Administration, U.S. Department of 
                                Commerce
    Mr. Chairman, Senator Hollings and Members of the Committee, it is 
indeed an honor and privilege to come before you as the nominee for the 
position of Assistant Secretary and Director General of the United 
States and Foreign Commercial Service.
    I am humbled and honored that President Bush would nominate me for 
this role. And I am eager to take on the challenge.
    I would first like to thank Senator Thad Cochran and Congressman 
Roger Wicker for their kind remarks. Both of these distinguished 
leaders mean a tremendous amount to me and my family professionally and 
personally.
    I would also like to express my sincere thanks to Secretary of 
Commerce Donald Evans, former Deputy Secretary Samuel Bodman and Under 
Secretary Grant Aldonas for their support of my nomination.
    What makes America the greatest nation in the world is the 
entrepreneurial spirit of the American people, no matter what your 
background.
    Growing up in Mississippi, I was a first hand observer of the power 
of that entrepreneurial spirit. My father--James Newman--left public 
service after almost a quarter of a century to pursue his dream of 
starting his own business, and pursue it he did--risking limited family 
savings, stable employment and morn's sanity in the process. His risk 
and investment some 25 years ago continue to generate precious 
dividends in the tangible evidence of community jobs, interstate 
commerce and income that even now some four years after his death--
provides a financial safety net that my family would not have otherwise 
had.
    This story--my story--illustrates the power of small businesses all 
over this great country. Small businesses create more than two out of 
every three new jobs and generate about 50 percent of our Nation's 
gross domestic product.
    In this time of great change in our domestic and international 
economies, it is imperative for our government to assist American 
businesses to obtain access for their products and services in the 
international marketplace. This is not only the mandate of the U.S. and 
Foreign Commercial Service, but also the dedicated focus of its 
programs and employees.
    The Commercial Service's worldwide network achieves this goal every 
day by linking American suppliers with international buyers; advocating 
for their best interests with foreign governments; and ensuring a level 
playing field. The programs and expertise provided by the Commercial 
Service are critical to the success of American companies in competing 
and winning in global markets. I have observed the efforts of 
Commercial Service employees to assist American companies in often 
difficult circumstances, and have been impressed with their skills, 
dedication, and pride in public service.
    If confirmed, I commit to a continuous assessment of, and 
investment in, both the development of innovative trade programs and 
the complex network that delivers them. My goal will be to ensure that 
the Commercial Service not only continues to meet the high expectations 
that our clients have of us, but that we exceed those expectations.
    If confirmed, I will look to maximize the synergies we have with 
state partners--as well as local partners, industry associations, and 
sister Federal partners--to provide companies in all states with access 
to the tremendous opportunities available to them through exporting.
    If confirmed, I welcome the challenge to lead the Trade Promotion 
arm of the Federal government. My two decades of work experience have 
been driven exclusively by client, constituent and consumer 
accountability. Those years of managing public relations' campaigns, 
leading field-based organizations, developing and adhering to complex 
budgets, building coalitions, and motivating and mentoring staff have 
prepared me for the myriad of opportunities ahead.
    Further, my experience in developing successful strategic marketing 
and outreach programs will heighten the awareness and value of 
Commercial Service programs to American companies.
    If confirmed, I pledge to conduct myself with unwavering 
commitment-taking ownership of every action, standing up for the 
entrepreneurial ideas, like those of my father, and standing by the 
over 1,600 dedicated public servants that have long made the Commercial 
Service an organization that leads rather than follows.
    If confirmed, I will pursue the stewardship of the Service with 
energy, integrity, accountability and a diligent awareness that we are 
here to serve our clients--American businesses.
    Mr. Chairman, thank you for the opportunity to be here today. I 
also want to take this opportunity to express my appreciation to family 
and friends--I would not be here today if not for you.
    I will be happy to answer any questions you might have and welcome 
your comments.
                                 ______
                                 
                      a, biographical information
    1. Name: (Include any former names or nicknames used.) Rhonda 
Newman Keenum (Rhonda Renee Newman).
    2. Position to which nominated: Assistant Secretary and Director 
General of the United States & Foreign Commercial Service.
    3. Date of nomination: December 9, 2003.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.

        Office: Department of Commerce, 1401 Constitution Avenue, NW, 
        WDC 20230.

    5. Date and place of birth: July 30, 1961; Waukegan, IL.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Mark Everett Keenum.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.)
    Not Applicable.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.)

        08/1981 to 05/1983 Mississippi State University: Bachelor of 
        Business Administration, May 1983.
        08/1979 to 0511981 Northeast Mississippi Community College: 
        Associate Arts, May 1981.

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

 
 
 
12/2003 to Present    Department of Commerce, International Trade
                       Administration
                      Senior Advisor to the Under Secretary
 
01/2000 to 12/2003    Edelman Public Relations, Senior Vice President
                      1875 Eye Street, NW, Suite 900, Washington, D.C.
                       20006
 
12/1997 to 01/2000    Ketchum Public Relations, Vice President
                      2000 L Street, NW, Suite 300, Washington, D.C.
                       20036
 
04/1997 to 12/1997    Taggart & Associates, Associate
                      1015 15th Street, NW, Washington, D.C. 20006
 
01/1996 to 12/1996    Dole for President, Director of Surrogate Program
                      840 First Street, SE, Washington, D.C.
 
01/1995 to 01/1996    U.S. Congressman Roger Wicker, Administrative
                       Assistant & Press Secretary
                      206 Cannon House Office Building, Washington, D.C.
                       20515
 
01/1993 to 01/1995    Republican National Committee, Deputy Director
                       Convention & Meetings
                      310 First Street, SE, Washington, D.C.
 
11/91 to 01/1993      Bush Quayle Presidential Campaign, Political
                       Operations
                      15th Street, NE, Washington, D.C.
 
03/1990 to 11/1991    Republican National Committee, White House Liaison
                      310 First Street, SE, Washington, D.C.
 
10/1989 to 03/1990    General Services Administration, Schedule C
                       Appointment
                      18th Street, NE, Washington, D.C.
 
04/1985 to 04/1989    Deposit Guaranty National Bank, Customer Service
                       Representative
                      Main Street, Starkville, MS 39759
 
09/1984 to 04/1985    Withit Retail Store, Sales Clerk
                      Starkville, MS 39759
 
07/1983 to 09/1984    Heritage CableVision, Purchasing Clerk
                      Booneville, MS 38829
 

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)
    Not Applicable.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)
    Officer--KS Associates, LLC (May, 9, 2003 to October 9, 2003)
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

  <bullet> Mississippi Society

  <bullet> Mississippi State Alumni Association

  <bullet> Junior League of Washington

    13. Political affiliations and activities:

    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Not Applicable.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.
    Not Applicable.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        Haley Barbour for Governor $1,000 (2003)

        George W. Bush $1,000 (2000)

        Mississippi Republican Party $1,200 ($300/annual)

        Gary Jackson for State Senate $300 (2003)

        Charles Walden for State Senate $250 (2003)

        Bill Hawks for Lt. Governor $1,500 (1999)

        Bob Dole for President $500 (1996)

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)
    Phi Theta Kappa.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)
    Not Applicable.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    Not Applicable.
    17. Selection:

    (a) Do you know why you were selected for the position to which you 
have been nominated by the President?
    Yes. I believe that the President nominated me for this position 
because of my unique combination of management skills, specifically, my 
experience managing nation-wide field operations, my budgetary and 
fiscal planning acumen, my demonstrated leadership in building 
coalitions and my long-standing commitment and success in motivating, 
mentoring and developing employees.

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    I believe that my 15-plus years of experience in managing national 
programs and field operations more than qualifies me for this position. 
I also have significant experience in developing and managing large and 
complex budgets; motivating and mentoring geographically dispersed 
employees; building strong partnerships with U.S. businesses, state and 
local governments and members of Congress; and setting clear 
priorities, goals and objectives.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, please explain: No.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    Not Applicable.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Not Applicable.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    Not Applicable.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Managed public affairs campaigns (earned media, coalition, 
grassroots activities) on behalf of client American Health Care 
Association--in 1999 and 2000. The objectives of the campaigns were to 
restore skilled nursing Medicare beneficiary funding that had been cut 
as result of Balanced Budget Act of 1998. In 1999, Congress passed the 
Balanced Budget Refinement Act (BBRA) that restored $2.7 billion to 
Medicare beneficiaries in skilled nursing facilities. In 2000, Congress 
passed the Beneficiary Improvement and Protection Act that restored 
$1.9 billion to Medicare beneficiaries in skilled nursing facilities.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    Not Applicable.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    Not Applicable.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress.
    Prior to implementation, I will ensure that any policies or 
procedures developed for or by the U.S. Commercial Service are in line 
with the intent of Congress, as expressed through its mandates, laws, 
regulations and directives. All such policies and procedures will be 
reviewed by my senior staff and planning office for compliance with 
Congressional mandates to ensure that no conflicts exist. When there 
are questions, we will work closely with members Congress and staff to 
clarify any issues.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such. occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    My 15-plus years of managing national programs and supervising 
field operations, developing and adhering to complex budgets, setting 
short and long term strategic operational objectives, building 
coalitions, and developing, motivating and mentoring staff have more 
than qualified me for this position. In addition, the contacts I have 
made in federal, state and local agencies will enable me to advance the 
goals of the U.S. Commercial Service by nurturing and leveraging 
partnerships. Further, my skills in developing successful, strategic 
marketing and outreach programs will heighten the awareness and value 
of U.S. Commercial Service programs to American companies.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    This position will allow me to apply my extensive experience, 
skills and abilities to meet the significant challenge of increasing 
the number of small and medium-sized U.S. exporters. In doing so, my 
hope is that the U.S. Commercial Service will play a part in improving 
the prosperity of our country, including the addition of new and higher 
paying jobs by small and medium-sized enterprises (the fastest growing 
segment of the U.S. economy), and by increasing local tax bases to help 
communities across the country.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    I have four primary goals I want achieve in this position, if 
confirmed:

  <bullet> Increase the number of new exporters and help current 
        exporters increase the number of markets to which they export.

  <bullet> Increase the number of exporters from traditionally under-
        served communities (minority-, rural- and women-owned 
        businesses).

  <bullet> Improve the quality of export assistance provided to 
        American companies by the U.S. Commercial Service by enhancing 
        the skills of our employees through professional development 
        opportunities.

  <bullet> Increase and deepen partnerships with other government 
        agencies and the private sector.

    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    This position requires strong management, motivational, and 
strategic planning skills for a widely dispersed, worldwide network. 
These are skills that I have successfully cultivated throughout my 
career and I believe that they will serve me well in this position. If 
confirmed, I will continue to seek to opportunities to improve my 
skills in this capacity.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    While I do not believe that it is the role of the Federal 
government to duplicate what can be done more efficiently in the 
private sector, I do believe that there is a necessary role for Federal 
agencies to play in providing export assistance to small and medium-
sized enterprises (with targeted emphasis to minority and rural 
communities).The cost of getting reliable market information from the 
private sector would preclude most small and medium-sized companies 
from exporting. It is for this reason that Congress created the 
Commercial Service, to provide American companies with reliable market 
information and export assistance at a reasonable price. In this 
capacity, the Commercial Service helps to improve the prosperity of our 
country, add new and higher paying jobs and increase local tax bases to 
help communities across the country. I believe that these are 
appropriate objectives for Federal Government agencies and programs.
    6. Describe the current mission, major programs, and major 
operational objectives 6&pound; the department/agency to which you have 
been nominated.
    Mission: The mission of the U.S. Commercial Service is to place 
primary emphasis on the promotion of exports of goods and services from 
the United States, particularly by small and medium-sized businesses, 
and on the protection of United States business interests abroad.
    Major Programs: The major programs of the Commercial Service 
include:

  <bullet> Customer Service-improving service delivery, establishing 
        quality standards and improving internal accountability for the 
        U.S. Commercial Service's small-and medium-sized clients

  <bullet> Communication and Outreach raising the profile of the wide 
        array of Federal export assistance programs available to small 
        and medium-sized American companies.

  <bullet> Rural Export Initiative-providing rural companies with 
        better access to export assistance through a comprehensive 
        network of partnerships, new technologies and unique products.

  <bullet> Global Diversity Initiative providing minority-owned and 
        operated firms with access to export assistance through a 
        comprehensive array of products, services and programs.

  <bullet> Professional Development and Retention-implementing programs 
        to attract talented professionals and, once on board, retain 
        and motivate employees through professional growth and 
        development opportunities.

  <bullet> E-commerce -capitalizing on new technologies and developing 
        new e-commerce products and services to provide American 
        companies with more accessible, cost-effect export solutions 
        and opportunities.

    Operational Objectives: The Commercial Service remains committed to 
achieving greater operational cost savings and efficiencies through 
automation and streamlining, while maintaining its high level of client 
service and satisfaction.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?

  <bullet> Technological advances that will require the development of 
        new and more effective ways to reach clients.

  <bullet> Globalization that will introduce a growing number of 
        American companies to exporting.

  <bullet> Maintaining a level playing field for U.S. exporters-
        reducing corruption and human rights abuses, improving rule of 
        law and encouraging U.S. companies to be ``good'' neighbors 
        through corporate stewardship programs

    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    The U.S. Commercial Service has, and continues to achieve its 
mission of promoting exports, supporting U.S. international commercial 
interests in the U.S. and abroad, and assisting the U.S. business 
community to identify new markets and expand sales and market share 
around the globe.
    The agency has been successful because it has been proactive in 
responding to changes in the world economy; adapted new technologies to 
improve both internal business processes and the range of products and 
services available to American companies; invested in its employees 
through professional development opportunities, and prioritized 
resources to get the most for its investments.
    9. Who are the stakeholders in the work of this department/agency?
    The Commercial Service's primary stakeholders are its clients, 
namely, small-and medium-sized U.S. businesses with the initiative and 
resources to export. Other internal stakeholders include the 
International Trade Administration, the Department of Commerce, 
Congress and the Office of Management and Budget.
    10. What is the proper relationship between the position to which 
yon have been nominated, and the stakeholders identified in question 
number nine?
    Clients: I would lead the U.S. Commercial Service's worldwide 
network in providing small and medium-sized U.S. businesses with 
customized export solutions.
    Internal Stakeholders: I would serve as their primary source of 
information on the U.S. Commercial Service for internal stakeholders. 
For all performance measures and results, I would assume and accept 
responsibility and accountability and provide regular access and 
updates.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.

    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    If confirmed, my responsibilities would be to institute and oversee 
management practices which promote compliance with management and 
accounting controls, to set an example by adhering to both the letter 
and spirit of laws and regulations, and to advise and support the ITA 
CFO as the CFO manages the agency's fiscal and accounting systems.
    Management practices I would emphasize include: training to ensure 
staff are cognizant of applicable fiscal systems and compliance 
expectations; use of performance appraisals to hold staff accountable 
for compliance/non-compliance; internal systems development to ensure 
staff have the tools to comply and to document compliance; and 
implementation of systems and practices to detect non-compliance.

    (b) What experience do you have in managing a large organization?
    I have over 15 years of experience in managing large, primarily 
field-based promotions and programs. Much of this work required 
building national coalitions and supervising the efforts of a large 
field staff in implementing critical objectives. My collective 
experience includes developing and adhering to complex budgets, setting 
short and long-term strategic operational objectives, building 
coalitions, and developing, motivating and mentoring geographically 
dispersed staff.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.

    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    I believe that identifying relevant performance goals benefits both 
taxpayers and the Congress by increasing an organization's 
accountability. Putting strong measures in place and reporting on those 
measures to the Congress ensures that tax dollars are being spent 
effectively and helps the agency stay focused on its core mission and 
assess organization and individual performance. Strong and transparent 
performance measures also promote a stronger trust in Government.

    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?
    Congress should insist on an explanation of why the results were 
not achieved, and, depending on the information provided, insist on 
corrective action, mid-course changes to strategy and/or revised goals. 
Agency elimination, downsizing, privatization, and consolidation are 
broad policy concerns about the appropriate role and relationships of 
the Federal Government and how to best serve the taxpayer. Failing to 
achieve performance goals is but one factor when considering these 
areas.

    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    If confirmed, my personal performance goals should be in line with, 
if not identical to, the goals of the agency. The goals presented to 
the taxpayer through the Trade Promotion Coordinating Committee and the 
National Export Strategy are applicable. In addition, as the senior 
executive for the U.S. Commercial Service, I will periodically announce 
management initiatives based on needs and evolving challenges, and 
these are the basis for personal performance goals.
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    As a manager, I believe in assembling and motivating a strong 
management team to help run the organization. In turn, the management 
team delegates responsibility to regional managers, commercial officers 
and trade specialists to deliver the highest quality service to our 
clients. Trust in the judgment of our field staff is essential to 
satisfy client needs in an organization that has more than 250 offices 
worldwide. My management style is highly collaborative and seems to 
work well in a diverse organization that has unionized foreign service 
officers and foreign service nationals representing more than 84 
different nationalities. No employee complaints have been brought 
against me.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional-experience include working with committees of 
Congress? If yes, please explain.
    I was the Administrative Assistant and Press Secretary for 
Congressman Roger Wicker (R-MS) during his time as the President of the 
Freshmen Class in 1995 an opportunity that allowed maximum interaction 
with the 73 Freshmen members and staffs-many of whom remain in the 
House (and in the Senate). In addition to my Hill experience, I 
interacted often with many members (and staffs) in my political and 
private sector positions.
    15. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    My relationship with the Inspector General will be open and 
collegial. It will include a continuing dialogue to ensure issues 
identified by the IG are resolved appropriately and to use the IG as an 
asset to improve the organization. The U.S. Commercial Service will 
follow-up promptly and aggressively on recommendations provided in 
Inspector General reports, and will make referrals to the Inspector 
General in cases of possible wrong-doing. In addition, the Commercial 
Service will seek a dialogue with the Inspector General on relevant 
issues, ensure IG staff have ready access to staff and records, and 
invite IG staff to participate as observers or speakers at management 
conferences.
    16. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    Personally, I believe that there are three primary areas under the 
Department's jurisdiction that Congress should consider as priorities:

  <bullet> Improving the quality and accessibility of export assistance 
        programs to small and medium-sized American businesses.

  <bullet> Ensuring compliance with international trade agreements 
        including technology, biotechnology, and intellectual property, 
        to provide American companies with full and fair access to 
        global markets.

  <bullet> Making U.S. companies as competitive as those of a number of 
        our trading partners by providing more effective assistance and 
        advocacy for a level playing field.

    17. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    If confirmed, I will pledge to develop and implement a system that 
allocates discretionary spending based on national priorities 
determined in an open fashion on a set of established criteria.
    In allocating resources, I will examine the U.S. Commercial 
Service's programs, initiatives, priorities and staffing patterns to 
ensure that funding levels support the agency's mission. My actions 
will be in accordance with budget timetables established by the 
Department and will be fully transparent and well documented.

    The Chairman. Thank you very much.
    Dr. Combs?

       STATEMENT OF LINDA MORRISON COMBS, NOMINEE FOR THE

          POSITION OF ASSISTANT SECRETARY FOR BUDGET,

             PROGRAMS, AND CHIEF FINANCIAL OFFICER,

               U.S. DEPARTMENT OF TRANSPORTATION

    Dr. Combs. Thank you, Mr. Chairman.
    It's, indeed, an honor to appear before your Committee 
today as you consider my nomination. I'm, too, very, very 
pleased to be nominated by the President and have the 
confidence of Secretary Mineta. And in the interest of your 
time today, I'd be pleased to submit my statement for the 
record.
    The Chairman. Without objection.
    Dr. Combs. Thank you.
    [The prepared statement and biographical information of Dr. 
Combs follow:]

Prepared Statement of Linda Morrison Combs, Nominee for the Position of 
Assistant Secretary for Budget, Programs, and Chief Financial Officer, 
                   U.S. Department of Transportation
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before you today as you consider my nomination to 
be Assistant Secretary for Budget, Programs and Chief Financial Officer 
of the Department of Transportation. It is an honor to be here and a 
privilege to have been nominated by President Bush for this important 
post. I'd like to thank Secretary Mineta for his confidence in my 
ability, and if confirmed, I look forward to working with all of you 
and your staffs in addressing the transportation issues that affect all 
Americans.
    The position of Assistant Secretary for Budget, Programs and Chief 
Financial Officer of any organization or Department carries a 
tremendous responsibility. It's a pivotal place in the Department where 
budget, accountability, and sound fiscal management all come together. 
It will be my goal, if confirmed, to build upon the progress that has 
already been made and continue to improve the management, performance, 
and results for the Department.
    Having gained invaluable experience in the management area while 
serving as the Deputy Under Secretary for Management at the Department 
of Education, Acting Associate Deputy Administrator for Management at 
the Department of Veterans Affairs, Assistant Secretary for Management 
and the first Chief Financial Officer at the Department of the 
Treasury, and most recently as the Chief Financial Officer at the 
Environmental Protection Agency, I welcome the opportunity, if 
confirmed, to face the challenges that lie before me at the Department 
of Transportation.
    In each of my public offices I have been guided by one over-riding 
principle: public service is a public trust. I am committed to 
upholding the highest standards of honesty, fairness, and integrity. 
The people of this great country deserve no less from those of us who 
serve in such honored positions.
    1 approach the challenges that lie before me with enthusiasm and 
eagerness to provide expert leadership for the Department of 
Transportation. Should you honor me with confirmation, I look forward 
to maintaining open lines of communication and a close working 
relationship with you. The Department of Transportation is very 
fortunate to have an outstanding, highly experienced budget and 
financial staff. If confirmed, I look forward to working with these 
fine professionals and learning from them. I am eager to begin our work 
together.
    l again thank you for the opportunity to appear before you, and I 
look forward to answering any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nick names used.) Linda 
Morrison Combs, Linda Combs, Linda M. Combs, Linda Morrison, Linda Gail 
Morrison.
    2. Position to which nominated: Assistant Secretary of 
Transportation for Budget and Programs and Chief Financial Officer.
    3. Date of nomination: November 25, 2003.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.
        Office: Department of Transportation, 400 7th Street, SW, Room 
        10101, Washington, D.C. 20590.

    5. Date and place of birth: 06/29/46; Lenoir, NC.
    6. Marital status: (Include maiden name of wife or husband's name.)
    David Michael Combs.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.)
    None.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.)

 
 
 
1960-1964      Hudson High                            Dip        1964
                School
1964-1966      Gardner--Webb    Boone, NC              AA        1966
                University
1966-1968      Appalachian      Boiling                BS        1966
                State Univ.      Springs, NC
1973-1978      Appalachian      Boiling                MA        1978
                State Univ.      Spring. NC
1982-1985      VP and State     Blacksburg, VA      Ed.D.        1985
                University
1984-1984      Harvard          Cambridge, MA       Cert.        1984
                University
1975           American Mgmt.                       Cert.        1975
                Assn.
1979           American                             Cert.        1979
                Institute of
                Banking
 

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

 
 
 
11/03-pres.           Advisor to the Secretary, DOT, Washington, D.C.
11/01-11/03           Chief Financial Officer, USEPA, Washington, D.C.
1991-2001             Combs Publishing & Consulting, self--sole
                       proprietor, W-S, NC
07/89-05/91           Assistant Secretary of Treasury for Management &
                       CFO, Wash, D.C.
08/88-07/89           Acting Assoc. Administrator for Management, DVA,
                       Wash, D.C.
10/87-08/88           Deputy Associate Administrator for Management,
                       DVA, Wash, D.C.
05/87-10/87           Combs Consulting Group, self employed, W-S, NC
10/86-10/87           Int'l Education Systems of N.C., W-S, NC
05/86-04/87           Public Education Advisor to the Governor of NC,
                       Raleigh, NC
09/84-05/86           Deputy Undersecretary for Management, Dept of Ed.,
                       Wash, D.C.
02/83-09/84           Executive Secretary, Dept of Ed., Wash, D.C.
05/82-02/83           Deputy Executive Secretary, Dept. of Ed., Wash,
                       D.C.
03/80-04/82           Mgr. National Direct Student Loan Operations,
                       Wachovia Serv., NC
09/79-02/80           Section Manager, Wachovia Services, Winston-Salem,
                       NC
12/80-05/82           Elected Member, Board of Education, Forsyth Co.,
                       NC
08/77-08/79           Assistant Principal, Speas School, Forsyth Co.,
                       Winston-Salem, NC
09/73-06/77           Reading Coordinator, Ardmore School, Forsyth Co.
                       Winston-Salem, NC
06/73-08/73           Director, Title I Summer Program, Forsyth Co.
                       Winston-Salem, NC
09/71-06/73           Reading Teacher, Clemmons School, Forsyth Co.
                       Winston-Salem, NC
01/70-06/71           6th Grade Teacher, Brown School, Forsyth Co.,
                       Winston-Salem, NC
09/68-01/70           6th Grade Teacher, Kernersville School, Forsyth
                       Co. W-Salem, NC
06/69-08/60           Correspondence Clerk, Bowman Gray Sch. of
                       Medicine, W-Salem, NC
 

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)
    Included above in #9.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)

 
 
 
1991-2001             Self Employed (Consultant/Writer/Speaker)
                       Proprietor
1991-2001             Co-Proprietor with David Combs of Combs Music
1999-2001             Gardner-Webb University. Unpaid member, Board of
                       Trustees
1992-2001             Appalachian State Univ. Unpaid member, Board of
                       Directors
1984-2001             Wake Forest Univ. Babcock Sch. of Mgmt. Unpaid
                       mem., Bd of Visitors
1995-1997             Piedmont Triad Alzheimer's Association, Unpaid
                       member Bd. of Dir.
2000-2001             Kaesona, Inc. Unpaid member, Board of Directors
2000-2001             Kybele, Inc. Unpaid member, Board of Directors
                      501(c)(3) corporation, incorporated in the State
                       of Kansas
1996-2000             NC Jewish Home, Clemmons, NC (unpaid member while
                       parents were residents--home now closed)
 

    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

 
 
 
1992-2001             Rotary International Club. Chaired the Devotional
                       Committee
1999-2001             Piedmont Women Executives
1996-2000             National Speakers Association
 

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

 
 
 
1980                  Elected to Board of Education for Forsyth County
                       School System in Winston-Salem, NC
1980/81               Vice President of Forsyth Young Republicans Club
 

    (b) List all memberships and offices held in and services rendered 
to all political parties or Election committees during the last 10 
years.

 
 
 
1972 & 1978           Actively worked in Jesse Helms for Senate Campaign
                       as Precinct Organizer. Also served in subsequent
                       campaigns in various capacities
1974-1980             Co-chair of South Fork Republican Precinct
1976-1980             Member of Forsyth Co. Republican Party Executive
                       Committee
1976 & 1980           Actively worked in the Reagan for President
                       Campaign
1980                  Elected to Board of Education for Forsyth County
                       School System in Winston-Salem, NC
1980-1981             Vice President of Forsyth Young Republicans Club
1982-1991             Active member of the North Carolina Republic Club
                       of Washington
1987                  George H. W. Bush Presidential Campaign
2000                  George W. Bush Presidential Campaign
1999                  Elizabeth Dole for President--National Finance
                       Committee
1999-2000             George W. Bush for President Campaign (Educators
                       for Bush)
1970-Pres.            Forsyth County Republican Women's Club
1995-1996             Forsyth County Republican Party Finance Committee
 

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

 
 
 
George W. Bush--2004 Presidential Campaign                       $2,000
George W. Bush--2000 Presidential Campaign                       $1,000
George H. W. Bush--1992 Presidential Campaign                    $1,000
Elizabeth Dole--2000 Presidential Campaign                       $1,000
 

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognition for outstanding service or achievements.)

 
 
 
1963                  Rural Electrification Assn. Scholarship for
                       writing a prize winning essay
1964                  Graduated with honors from high school
1974                  Winston-Salem/Forsyth Co. School System
                       Scholarship
1977                  Nominated ``Teacher of the Year'' by Speas School
1978                  Nominated ``Teacher of the Year'' by Speas School
1997                  Delta Kappa Gamma Honor Society
1979                  Phi Delta Kappa Honorary Society
1983                  Combined Federal Campaign Award
1983                  Combined Federal Campaign Outstanding Service
                       Award
1984                  Phi Delta Kappa Service to Education Award
1984                  Secretary of Education's Special Citation
1985                  Honorary Doctorate, Gardner Webb College
1986                  Distinguished Alumnus of the Year, Appalachian
                       State Univ.
1987                  Alumnus of the Year, Gardner Webb College
1986                  Certificate of Appreciation, U.S. Secretary of
                       Education
1988                  President's Council on Management Improvement
                       Award
1988                  Executive Performance Award, Veterans
                       Administration
1988                  President's Council on Management Improvement
                       Outstanding Leadership
1988                  Outstanding Volunteer Award
1989                  Veterans Administration Appreciation Award
1989                  Pride in Public Service Achievement
1996                  Alzheimer's Association Award from Nancy Reagan
1996                  Piedmont Triad Alzheimer's Association Volunteer
                       of the Year
1997                  Special Service Award, Appalachian State
                       University
2002                  Received the President's Quality Award Program
                       Finalist Award given in the area of budget and
                       performance integration. (One of only seven
                       awards presented government-wide.)
2003                  Received White House recognition for Leadership
                       and accomplishments in improving financial
                       performance. (One of three recognitions given
                       government-wide.)
 

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)

 
 
 
Author......................................
Jan. 2001...................................  ``Work Together to Ensure that No Child is Left Behind,'' Article
                                               in Winston-Salem Journal Guest Column
Dec. 1994...................................  ``Reflections on Dealing with Alzheimers,'' article by Linda
                                               Morrison Combs
Dec. 1994...................................  ``A Long Goodbye and Beyond. Coping with Alzheimers,'' book by
                                               Linda M. Combs
Dec. 1996...................................  ``Fact and Commentary,'' article on Alzheimer's Disease Primary
                                               Psychiatry Journal
Mar. 1984...................................  ``An Analysis of Productivity Improvements and Trends in the
                                               Executive Secretariat,'' paper, U.S. Department of Education
Mar. 1985...................................  ``Sharing Educational Responsibility,'' article in Winston-Salem
                                               Sentinel
1985........................................  ``Developmental Education: The Federal Viewpoint.'' Journal of
                                               Developmental Education, Volume 9, Issue 1
Nov. 1985...................................  ``Education in the Year 2035--A Delphi Study to Identify Possible
                                               Futures of the Public Secondary School'' (Dissertation submitted
                                               to fulfill requirements for Ed.D. at Virginia Polytechnic and
                                               State University)
Co-author...................................
Mar. 1985...................................  ``An Inventory of Shared Administration Support,'' New
                                               Perspectives on Federal Management for the President's Council on
                                               Mgmt. Improvement (PCMI) Interagency Task Force Report
Apr. 1985...................................  ``Case Studies of shared Administrative Support,'' New
                                               Perspectives on Federal Management for the PCMI Interagency Task
                                               Force Report
Aug. 1985...................................  ``Measuring Administrative Services: Assessing and Improving
                                               Productivity,'' A PCMI Interagency Task Force Report
Oct. 1985...................................  ``Streamlining Internal Control Processes and Strengthening
                                               Management Controls with Less Effort,'' A PCMI Interagency Study
                                               Report
1985........................................  ``Improving Federal Productivity: An Inventory of Agency
                                               Examples,'' A PCMI Task Force Report
 

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.

 
 
 
04/1999               ``The Perfect Politician,'' speech for Forsyth
                       County Republican Club Monday luncheon, Winston-
                       Salem, NC
08/1999               ``Facing a long Goodbye--Caring for Your
                       Parents,'' for the National Speaker's Association
                       Meeting in San Antonio, TX
11/1999               Caregiver Renewal Day, speech Dallas TX
11/1999               ``Coping with Alzheimer's Disease,'' on-line chat
                       event guest for Web Med, Inc.
05/2002               Remarks during EPA Senior Executive Service
                       Meeting, Washington, DC
05/2002               ``Emerging Issues in Environmental Protection''
                       before the EPA Annual Planning and Budget
                       Meeting, Washington, DC
06/2002                ``Getting Beyond Green: President's Management
                       Agenda,'' for 7th Annual Treasury CFO Council
                       Retreat, Washington, DC
06/2002               ``Careers in Federal Government,'' during Caldwell
                       Co. June Scholars Ceremony, Lenoir, NC
08/2002               ``President's Management Agenda,'' during EPA
                       Regional Administrators Meeting on Improved
                       Results, Washington, DC
08/2002               ``Rising to Excellence through Citizen-Centered
                       Government,'' during EPA's 4th National Customer
                       Service Meeting, Washington, DC
08/2002               ``Using Business Tools to Improve Results,''
                       during Business Intelligence Team Kickoff
                       Meeting, Washington, DC
10/2002               ``Getting Beyond Green-Financial Management'
                       before the Administrator's Senior Staff Meeting
                       in San Francisco, CA
11/2002               Remarks before the ARA Meeting, Washington, DC
01/2003               ``Citizen-Centered Government,'' during Cleveland
                       County Manufacturer's Council Meeting,
                       Washington, DC
02/2003               ``Office of Chief Financial Officer's Priorities
                       for 2003,'' before the Second Annual Customer
                       Service Expo, Washington, DC
03/2003               ``Integrating Budget and Performance at EPA,''
                       during JFMIP 32nd Annual Conference as panel
                       session speaker, Washington, DC
03/2003               Remarks before the Environmental Financial
                       Advisory Board Annual Meeting in Washington, DC
04/2003               ``President's Management Agenda,'' at the EPA
                       Assistant Regional Admin. Annual Conference,
                       opening remarks, Washington, DC
05/2003               ``EPA Strategic Plan,'' before State Commissioners
                       and EPA Managers Workshop, welcoming remarks,
                       Washington, DC
05/2003               ``Government Agencies Are Facing Accelerating
                       Rates of Change,'' at AFFIRM Post/Newsweek Panel
                       Meeting
05/2003               ``Integrating Budget and Performance at EPA,'' at
                       logistics Management Institute Meeting, Tyson's
                       Corner, VA
06/2003               ``Strategic Business Partners: How Can we Be Good
                       Partners,'' before Association of Government
                       Accountants (AGA) Conference, Chicago, Ill.
06/2003               ``Partnering for Results'' before the AGA
                       Professional Development Development Conference
                       in Chicago, IL
10/2003               ``Update on Implementation of the President's
                       Management Agenda'' before the Environment
                       Performance Summit Meeting in Wash., DC
 

    17. Selection:

    (a) Do you know why you were chosen for this nomination by the 
President?
    I believe that I was chosen for this nomination by the President 
because of my skills in managing other similar positions.

    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    I have worked in four different Federal agencies with oversight 
authority for financial management and budget. These positions include 
Deputy Undersecretary for Management at the Department of Education; 
Assistant Secretary for Management and Chief Financial Officer at the 
Department of Treasury; Acting Associate Administrator for Management 
at the Department of Veterans Affairs; and most recently as Chief 
Financial Officer at the U.S. Environmental Protection Agency. During 
my tenure at EPA, it became the third agency to ``get to green'' for 
status in financial management, receiving a clean audit opinion with no 
material weaknesses, an initiative on the President's Management 
Agenda.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate?
    I do not currently have any employment outside the Federal 
Government.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain: No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    See attached OGC letter following this page. [Not printed here.]
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    I shall consult with DOT's designated Ethics Official and either 
recuse myself, obtain a waiver, or take such other action as may be 
appropriate.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details: No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details?
    In 1976 in the zoning appeal case of City of Winston-Salem and the 
Board of Alderman and Mayor V. the N.W. Stratford Neighborhood Planning 
Council and David M. Combs and wife, Linda, I was named as a party 
because my husband, then President of the N.W. Stratford Neighborhood 
Planning Council, was named as the party in interest, hence I was named 
due to NC marital estate law. The property was rezoned from a level one 
tract single residential zone to a level five tract highway business 
zone. The Planning Council filed a petition to challenge the vote 
citing that the Roberts Rules of Order were not being properly 
followed. In April 1976, the Council lost on a motion for summary 
judgment, and an appeal was not pursued.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by Congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress.
    If confirmed, I will have the responsibility to review the 
budgetary impact of all significant DOT regulations. As the Assistant 
Secretary for Budget and Programs/CFO it would be my responsibility to 
verify the financial ramifications of regulations for both the 
Department and private industry. I intend to work diligently with 
regulators as well as Departmental officials to comply with all aspects 
of the laws passed by Congress, and I will take responsibility to 
ensure that a thorough review process is followed within DOT's Office 
of the Chief Financial Officer.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives.
    The mission of the Department of Transportation is to provide a 
safe and efficient transportation system. If confirmed, I would be 
committed to ensure that this mission is carried out in an efficient 
manner with the use of all appropriate tools such as departmental 
regulations, safety inspections and services, investments in 
infrastructure and the development of new technologies and public 
education awareness.
    The Government Performance and Results Act (GPRA) commits the 
Department to managing for results, and this has been reflected in the 
strategic goals and performance plan. DOT already has been successful 
in reaching over 70 percent of its goals set forth in its strategic 
plan and I am committed to continue to strive to improve safety, 
mobility, economic growth, human and natural environment, and national 
security.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    I will.
                  f. general qualifications and views
    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated?
    I feel that I am qualified to serve in the position of Assistant 
Secretary for Budget and Programs/Chief Financial Officer at DOT 
because of my training, experience, and commitment. During my career I 
have held numerous management positions with increasing levels of 
responsibility. I have had the opportunity to serve in equivalent 
positions at the Departments of Education, Veterans Affairs, Treasury, 
and most recently at EPA.
    The Chief Financial Officer position presents a tremendous 
opportunity to develop a careful balance between providing service and 
exercising control and discipline within the Agency. As the Assistant 
Secretary for Budget and Programs/CFO at DOT, I would have the 
responsibility of overseeing financial management, budgeting, 
performance measurement, analysis and accountability functions, all of 
which I have done in previous positions.
    I have a very strong commitment to public service. I believe that 
public servants have an obligation to set a good example and should 
uphold the highest ethical standards. I am always mindful of that 
public trust and will always strive to honor the public trust.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    If confirmed, I hope to inspire the employees at DOT to strive to 
reach the Department's goals and objectives of providing the safest, 
most efficient transportation system. This would be aided by improving 
the financial management initiatives and ultimately bringing that 
Department from ``red'' to ``green'' on the initiatives set forth as 
priorities by the President's Management Agenda.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    My personal goal would be to elevate DOT into the limelight as one 
of the best run financial management organizations in the Federal 
Government thereby helping DOT in achieving its goal of providing a 
safer, simpler and smarter transportation system for the benefit of all 
Americans. I hope to obtain this goal through providing guidance for 
appropriate funding recommendations. I believe my past experience in 
motivating employees to ensure the best teamwork will ultimately 
provide the development of transportation policies and programs that 
will contribute to providing fast, safe, efficient, and convenient 
transportation at the lowest cost.
    If confirmed, some of the things I want to accomplish in my role as 
Assistant Secretary for Budget and Programs/CFO would be to improve 
upon the financial management efforts of the Department to ensure that 
DOT receives and maintains a clean audit, to modernize and improve 
DOT's financial systems for program management in a more efficient 
manner to benefit taxpayers and to provide DOT managers with real-time 
financial information that would be readily available to them from 
their desktops.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    I do not have extensive knowledge about transportation programs and 
activities, but I have worked in oversight positions in financial 
management in three Administrations at four Federal agencies 
(Education, Veterans Affairs, Treasury and EPA) and believe my 
knowledge of budgetary matters will allow me to have great insight into 
any relevant programs that need a good solid financial structure on 
which to accomplish its goals.
    I have witnessed some very outstanding skills from DOT employees, 
and I would want to learn from them in order to get the job done. I 
hope to be able to combine our knowledge and skills to obtain the goals 
set before us, and together I know we will succeed. A good working 
relationship with Departmental and Congressional officials is also a 
big step towards broadening my knowledge of relevant transportation 
programs.
    5. Who are the stakeholders in the work of this agency?
    The stakeholders of DOT are our fellow American citizens. Most 
Americans obtain a direct benefit from the Department in their daily 
lives-traveling to and from work each day, going on vacation, or dining 
out, made possible by delivery of foods via one or more modes of 
transportation. Other important stakeholders include Congress, state 
and local elected and appointed officials, and fellow Americans who are 
employed by the transportation industry sector.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten.
    If confirmed, I would certainly be accessible and responsive to the 
stakeholders I have mentioned above, and provide clear and ethical 
standards relating to budgetary and financial decisions. I would not 
allow special interests to dictate the policy and operations of the 
Department.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector.

    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your agency has proper management and accounting controls?
    If confirmed as Assistant Secretary for Budget and Programs/Chief 
Financial Officer, I plan to ensure that DOT has state-of-the-art 
management and accounting control systems in place. I believe this is 
critical to obtain clean audit opinions and clear up material internal 
control weaknesses. To do this, we must have at our fingertips the most 
reliable, accessible and accurate financial information. I hope to be 
instrumental in making the Department's accounting system more 
practical and user friendly. This, combined with a productive workforce 
will enable us to integrate the five mutually reinforcing goals into 
DOT's culture as we strive for continuous management improvement as set 
forth by President Bush's Management Agenda. Those goals are: (1) 
Strategic Management of Human Capital; (2) Budget and Performance 
Integration; (3) Competitive Sourcing; (4) Expanded E-Government; and 
(5) Improved Financial Management.
    To this end, I would be a shepherd for the department's major 
priorities which are:

    Safety. DOT's number one goal is to have a safe and efficient 
transportation system. In order for this priority to be realized, DOT 
components need to focus on improving safety, inspecting operations, 
issuing regulations, supporting research projects, supporting public 
education and maintaining all of the above functions without needing to 
worry about the soundness of their financial systems. I hope to enable 
all these functions to run smoothly.

    Mobility. One of the biggest problems facing our economy today is 
congestion. Traffic congestion and bottlenecks damage air quality, slow 
commerce, increase energy consumption and threaten our quality of life 
causing Americans to waste significant time and money. We all know that 
public transportation is one way to alleviate some of these problems. 
Better and more effective solutions are needed to address our growing 
mobility needs. I will work towards developing a reliable and 
financially viable system through more innovative finance programs.

    Global Connectivity. Recognizing that global connectivity is a 
vision of the future, we must open up our trade and economic growth 
exchange to expanded democracies around the world. Transportation is 
critical to opening up these worldwide exchanges. I hope to be 
instrumental in finding ways to increase these exchanges with better 
policies and programs installed into our performance plans.

    Environmental Stewardship. Energy consumption is an emerging 
concern for the transportation sector. Environmental streamlining and 
stewardship offer a new way of doing business that brings together the 
timely delivery of transportation projects and still protects the 
environment. We must remain consistent with the requirements of 
environmental law and our responsibilities to be good stewards of the 
environment. I intend to offer my assistance to Secretary Mineta in his 
role of chairman of the task force that has the goal to expedite 
priority projects to lessen transportation effects on the environment.

    Security. President Bush has asked DOT to work together with the 
Department of Homeland Security (DHS) on designing a world-class 
transportation security system. The aim is to maximize the 
opportunities presented by our regulatory enforcement activities when 
they expose security risks in the transport of goods or people.

    (b) What experience do you have in managing a large organization?
    I have managed large organizational structures at the Department of 
Education, at the Department of Treasury and at EPA. There were 
approximately 350 employees under my responsibility at EPA and over 
1500 at Treasury. We managed to become one of the leading achievers in 
the Federal financial management field. I believe one of my strengths 
in managing is encouraging employees to do their very best always, and 
when employees are given the respect and encouragement to do their 
best, you usually attain the best results. A good supporting cast makes 
a great difference in achieving goals that you have set for your 
organization.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.

    (a) Please discuss what you believe to be the benefits of 
identifying performance goals reporting on your progress in achieving 
those goals.
    I strongly believe in the spirit and intent of GPRA. I also believe 
that the law was identified to keep agencies in check. Without GPRA, an 
agency would have no way to measure its success. With reasonable goals 
laid out in the strategic plan, the agency benefits greatly in its work 
products because employees are going to strive to achieve those goals. 
By reporting on the status of those goals, you know where you are and 
where you need to be and also if there is a need for any changes.

    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs?
    As usual, any actions that react to failure usually sound more 
drastic than they need to be. But if any of the suggested actions above 
will enhance the programs and make it possible to meet the performance 
goals, such options should be considered. However, 1 believe 
organizational factions should work together to sets goals that are 
both reasonable and challenging, and also agree with mission of the 
agency and the Administration. Goals should never be too reachable or 
too unattainable.

    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    If confirmed, I would personally accept responsibility for 
administering the GPRA performance plan, thusly holding myself 
accountable to all of the Department's top goals. I would maintain 
close coordination with the Secretary and Deputy Secretary in the 
conformance of annual performance goals for my office. These goals 
would include being responsive to Congress and other stakeholders and 
at the same time maintaining proper implementation of the duties of the 
Assistant Secretary for Budget and Programs/CFO, specifically in 
achieving and maintaining a clean audit.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    My first and foremost philosophy on supervisor/employee 
relationship centers on mutual respect for one another. I like to 
practice innovative management techniques and institute management 
improvements and initiatives that result in actual and noticeable 
improvements. I believe that employees represent the greatest resource 
for any organization, and it is my opinion that in order for employees 
to achieve their highest potential and to take pride in their work, you 
must motivate them to want to do so. All organizational accomplishments 
are done by and through people, and as such, employees deserve 
professional treatment and respect. I believe in rewarding positive 
performance and encouraging innovation and creativity. I place a 
premium on ideas and suggestions from employees on ways to improve the 
efficiency and performance of an organization. I believe in listening 
to both the customer and to the people who serve the customer.
    I do not know of any employee complaints brought against me.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe.
    I have worked with Congress in previous positions within the 
Federal Government. In my roles as the chief financial officials in 
four previous departments and/or agencies, it has been my honor to 
appear before several different oversight congressional committees to 
provide testimony and reports, both in oral and written communication. 
I know there is a genuine need for their oversight roles and I respect 
the process. I always try to be responsive to Congressional staff and 
members. If confirmed, I would strive to obtain and maintain positive 
working relationships.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    I have always had a close working relationship with the Inspector 
Generals in the Departments in which I have served. If confirmed, I 
would want to maintain a close working relationship with the IG at DOT. 
One of the many goals of the IG is to ensure that the Department 
operates in a manner that is free of waste, fraud and abuse. This is 
certainly a goal of mine as well. I have spoken with DOT's IG and if 
confirmed, I would welcome his offer to continue an open, candid 
relationship with me.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress.
    I would feel privileged to work closely with this Committee and DOT 
officials to address any concerns about proposed regulations. As 
Assistant Secretary for Budget and Programs/CFO, I would accept the 
responsibility to review all regulations for budgetary impact on the 
Department as well as in the private sector. I would assure that 
Congress was notified of any obligations or resources needed by the 
department.
    When the Department of Transportation has legal authority or 
direction to impose regulations, I believe it would be important to 
assure that existing laws and regulations reflect Congressional intent. 
I believe it is important to work with DOT officials to address 
Congressional concerns with any proposed regulations. I feel strongly 
that briefings with Congressional staff are important, and would strive 
to work with Congress and staff to communicate pending departmental 
actions.
    13. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views.
    The most recent six-year surface transportation authorization act, 
the Transportation Equity Act for the 21\81\ Century (TEA-21), expired 
on October 1, 2003. A short-term extension of TEA-21, the Surface 
Transportation Extension Act of 2003, expires on February 29 of this 
year.
    Surface transportation reauthorization is a key priority of the 
Administration and DOT. A major component of the Department's 2004 
budget request includes the financial foundation for the proposed new 
multi-year surface transportation legislation and the recently enacted 
aviation reauthorization, Vision 100--Century of Flight Reauthorization 
Act. I look forward to working closely with Congress on swift enactment 
of the surface transportation reauthorization bill that will continue 
to keep our surface programs strong and responsive to the Nation's 
transportation needs while continuing to focus on highway safety.
    One of my personal aspirations would be for Congress to look at 
ways to make Amtrak solvent so that it can serve its customers in a 
more efficient manner.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a time frame for their 
implementation.
    I am a firm believer that discretionary spending based on national 
priorities is a worthwhile objective to pursue. The criteria, however, 
would need to be based on existing laws and standards set by Congress. 
I would follow the direction of Congress, and laws that are passed by 
Congress.

    The Chairman. Thank you.
    Mr. Buttrey?

      STATEMENT OF W. DOUGLAS BUTTREY, MEMPHIS, TENNESSEE

    Mr. Buttrey. Mr. Chairman, thank you very much for the 
opportunity to be here today before you, and to have an 
opportunity to thank the President and Senator Frist and 
Senator Alexander for having faith in me and helping with this 
nomination. I also wish to thank Congressman Ford for his very 
kind introduction today.
    I'd like to thank certain members of the staff at the 
Surface Transportation Board for assisting me over the last few 
weeks. Dan King and Mary Turek are here today and I'd like to 
thank both of them very much for being here and helping me 
prepared for this hearing.
    If confirmed, I look forward to working with the Committee, 
with other Members of the Congress and the staff, to take a 
good, hard look at the issues facing the freight rail industry. 
I'll have a very steep learning curve, having spent my entire 
career in the air transportation industry.
    So, I look forward to working with my colleagues at the 
board, the staff at the board, and the Congress as we pursue 
the issues that come before the Board.
    Thank you very much.
    [The prepared statement and biographical information of Mr. 
Buttrey follow:]

Prepared Statement of W. Douglas Buttrey, Nominee to be a Member of the 
                      Surface Transportation Board
    Thank you, Mr. Chairman: I want to express my appreciation to you 
and the Committee for holding this hearing today and to Senator Frist 
and Senator Alexander for their support of my nomination.
    I understand that they are not able to be here today due to other 
pressing Senate business and have submitted statements for the record.
    I also want to thank President Bush for sending up my nomination to 
the Senate. This is a great honor which I take very seriously. I also 
want to thank my Congressman, Harold Ford, Jr., for taking time from 
his busy schedule to come to the hearing today on short notice to 
introduce me and make a statement in support of my nomination.
    If I may, Mr. Chairman, I would also like to thank three members of 
the staff of the STB who have been very helpful to me during my 
preparation for this transition. They are Dan King, Mary Turek and Anne 
Quinlan. In the interest of time, I will be very brief.
    I look forward to working with the Committee and the staff of the 
Board to address the pressing issues in the freight rail industry. 
Having spent my entire career in the aviation industry, I have a very 
sharp learning curve ahead of me and i look forward to meeting that 
challenge. I plan to do a lot of listening to the varied interests 
which fall within the jurisdiction of the STB.
    I have been engaged in my own personal due diligence to help me 
prepare for my new responsibilities by touring an intermodal facility, 
A large classification yard and by meeting with some significant rail 
customers in Memphis.
    Thank you again Mr. Chairman and I will attempt to answer any 
questions that you may have.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nicknames used.)
        William Douglas Buttrey.
    2. Position to which nominated: Member, Surface Transportation 
Board.
    3. Date of nomination: (TBD)
    4. Address: (List current place of residence and office addresses.)
    Residence: Information not released to the public.
    5. Date and place of birth: May 11, 1945; Weeksville, North 
Carolina.
    6. Marital status: (Include maiden name of wife or husband's name.)
    Married (Sep. 28, 1968); Margaret Ann (Beasley) Buttrey.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.)
    Nathan A. Buttrey (only child)--28.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.)

        University of Miami--Grad. Law, 09/1971-05/1972, No Degree, n/a

        University of Memphis School of Law, 09/1968-05/1971, JD, 05/
        1971

        Tennessee Technological University, 06/1964-08/1968, BS, 08/
        1968

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

 
 
 
Consultant        American Project      Memphis          07/2002 09/2003
                   Services
Consultant        Memphis Biotech       Memphis          04/2002 09/2003
                   Foundation
Sr. Gov't         Federal Express       Memphis/DC       02/1979-11/2001
 Affairs Rep.      Corporation
Counsel           U.S. Senate Commerce  DC               03/1976-12/1978
                   Committee
Attorney          U.S. Civil            DC               08/1972-03/1976
                   Aeronautics Board
Law Clerk         Neely, Green,         Memphis          Summer 1970
                   Fargarson Law Firm
Counselor         Memphis Park          Memphis          Summer 1969
                   Commission
 

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.) None.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)
    See answer to Question A-9 above.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

 
 
 
Church of Christ at White Station    Deacon--Over ten years
Church of Christ at White Station    Legal Ministry Leader--Over ten
                                      years
Villas of River Oaks Homeowners      Vice President--2002 to present
 Ass'n
Tennessee Lobbyist Association       Member--Five years
Tennessee Bar Association            Member--Over ten years
District of Columbia Bar             Member--Over ten years
 Association
Shelby County Republican Party       Caucus Delegate--2003
Student Bar Association              Law School--President
Moot Court Board                     Law School--Student Justice
Friends of Charter Schools           Board Member--1999/2000
Republican Eagles                    Company Representative (Company Pac
                                      paid annual dues)
Memphis Area Chamber of Commerce     Member--Gov't Affairs Committee
                                      (Company paid annual dues)
Law Student Division--ABA            1969-1971
Nomination & Election Committee      Chairman--1970
Alpha Tau Omega Fraternity           College Social Chairman
 

    13. Political affiliations and activities:

    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.
    Shelby County Republican Party, Local Caucus Delegate.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of$500 or more for the past 10 years.

        Bush/Cheney 2004: $1,000

        FedEx Political Action Committee:
                2001: $404.25
                1995-2000: $414/year
                1993-1994: $240/year

    14. Honors and awards:(List all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals and any other 
special recognition for outstanding service or achievements.)

        Sam A. Meyer Memorial Law Scholarship

        Omicron Delta Kappa National Honor Society

        ABA--LSD, Silver and Gold Key Awards

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) None.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. None.
    17. Selection:

    (a) Do you know why you were selected for the position to which you 
have been nominated by the President?
    I expressed an interest in serving in this capacity to Senator Bill 
Frist, and he sent my name to White House Personnel.

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    Business degree; Law degree; Attorney at U.S. Civil Aeronautics 
Board; Counsel to U.S. Senate Subcommittee on Aviation; 22 years 
experience at Federal Express Corporation.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, please explain. No.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your fall term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.

        Collecting FedEx ``defined benefit'' pension--$4,322/month

        Unpaid ``account receivable'' from American Project Services--
        $70,000

        Potential ``passive income/dividend'' from American Project 
        Services--TBD

    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Prepared a white paper for the Memphis Biotech Foundation (MBF) 
setting forth a strategy for securing Federal appropriations to support 
biotech efforts in Memphis, Tenn. Attended two meetings in DC with MBF 
staff.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)

        Termination

        Divestiture

        Recusal

        Blind Trust

6.  Do you agree to have written opinions provided to the Committee by 
            the designated agency ethics officer of the agency to which 
            you are nominated and by the Office of Government Ethics 
            concerning potential conflicts of interest or any legal 
            impediments to your serving in this position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain.
    Minor misdemeanor in Daytona Beach, Florida, while in college.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    See response to Question D-2 above.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disc1osures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress.
    I will confer with STB legal staff and Congressional Committee 
counsel on an ``as needed'' basis.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    My legal education has provided me with an understanding of and 
appreciation for the quasi-judicial nature of the agency's statutory 
responsibilities. My experience as an attorney in the Office of General 
Counsel at the U.S. Civil Aeronautics Board provided me with an 
understanding of and appreciation for the functions of an Executive 
Branch agency operating pursuant to the provisions of the 
Administrative Procedures Act. My experience as counsel to the U.S. 
Senate Subcommittee on Aviation provided me with an understanding of 
and appreciation for the continuing oversight function of a committee 
of original jurisdiction. My experience in the private sector as a 
manager of a highly regulated industry provided me with an 
understanding of and appreciation for the critical importance of 
compliance with regulatory requirements.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    I was taught and I personally believe that public service is an 
honorable endeavor which if properly executed results in benefits to 
the overall public interest. I have had meaningful and rewarding 
experience in the public and private sectors and I believe I can in 
concert with my colleagues at the agency translate those experiences 
into public policy in furtherance of the agency's statutory mandate. 
The Congress has determined that there should be diligent economic 
oversight of the freight railroad industry in order to maintain a fair 
balance of the interests of all the stakeholders. Because the 
transportation industry has been the focus of all my professional 
career, this process is of interest to me.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    Familiarize myself with the major administrative precedents which 
provide the regulatory framework for future decisions of the agency; 
familiarize myself with the decisional criteria employed in major 
proceedings before the agency; familiarize myself with the economics of 
the freight railroad industry; familiarize myself with the economics of 
major shippers; and, familiarize myself with the intricacies of labor 
protective provisions which are a major concern to the Congress.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    In my previous experience as an attorney at the Civil Aeronautics 
Board, I had the least contact with the rate cases coming before the 
Board. The rate cases were primarily domestic passenger fare cases 
which were complex and lengthy. The attorneys handling those cases were 
very specialized and skillful and were charged with the task of 
unraveling the cost structures of the commercial carriers in an attempt 
to divine fares that were fair to the traveling public and provided a 
reasonable rate of return to the carriers. While similar to freight 
railroad rate cases, there are considerable differences in the 
economics of the two industries. I believe I will have to spend 
considerable time with agency staff very early in my term understanding 
the intricacies of rail freight rate construction. This is a task I 
welcome and to which I look forward.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    There is a saying that is often repeated when discussing the proper 
role of government in a democracy. The saying is ``The best government 
is the least government.'' My basic view on the role of government 
generally follows this view. This does not mean, however, that there is 
never an occasion for government intrusion into the private sector. 
Where there is a compelling public interest to be served and where 
there is the realistic possibility that irreparable harm my result from 
inattention to a particular activity or pursuit it would appear that 
some measured application of intrusion could be justified. In my view, 
the free enterprise system should be trusted to the maximum extent to 
provide levels of competition and pricing that will serve the overall 
public interest. Unfortunately, the free enterprise organism has proved 
in some cases to have feet of clay and government intrusion has 
resulted. Consequently, the American economy is replete with examples 
of well intentioned attempts to benignly engineer a result that would 
not likely occur in totally deregulated commerce. It would, in my view, 
be preferable if such tinkering were not necessary. But, the likelihood 
of irreparable harm compels those with oversight responsibilities to 
take precautionary and remedial measures to protect the public 
interest. Only when this protective desire is satisfied will we see the 
intrusions of government be reduced.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    Current Mission: In his October 23, 2003 testimony before the 
Senate Commerce Committee, STB Chairman, Roger Nober, noted that, ``The 
Board is an economic regulatory agency that Congress charged with the 
fundamental missions of resolving railroad rate and service disputes 
and reviewing railroad mergers, line sales, abandonments and new 
construction. One of the main reasons the Board exists is to provide a 
regulatory backstop to assess the reasonableness of rates charged to 
captive shippers when those customers and their railroads are unable to 
successfully negotiate a contract for the transportation.
    Major Programs: Creation of the Rail Consumer Assistance Program 
within the Office of Compliance and Enforcement providing a forum for 
resolution of disputes short of a costly and lengthy formal proceeding; 
Possible creation of a meaningful process for quickly and surely 
deciding small rate cases pursuant to the Board's small case guidelines 
adopted in 1996; Adoption of new procedures to streamline the 
administrative process in large rate cases to shorten and reduce the 
cost of such cases; and fully explore the opportunities available 
through the arbitration early in the life of any dispute.
    Major Operational Objectives: Fulfilling the Board's statutory 
mandate with limited resources; assuring that due process requirements 
are vigorously protected; assuring that access to the regulatory 
process is not impeded; maintaining constant vigilance over quality 
processes and assuring that Board staff issues are properly addressed.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    Finding ways to fulfill the Boards statutory mandate with limited 
resources; Properly and fairly balancing the competing interests of all 
the stakeholders in the freight rail industry; and, adequately 
considering the environmental issues that might arise during 
consideration of agency proceedings. These responsibilities form the 
very core of the regulatory process the failure of which would likely 
give rise to the initiation of oversight proceedings to protect the 
public interest.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    I do not feel comfortable with or well positioned to be a critic of 
the Board's activities over the past several years because I have had 
no professional contact with the industry or the Board. I have met the 
current Chairman and the immediate past Chairman and I know a few 
railroad employees. I am only now familiarizing myself with the 
industry and the Board. This level of knowledge does not, in my view, 
qualify me to be a critic. However, I have read Chairman Nober's recent 
testimony before the Commerce Committee and I have taken note of some 
of his concerns. I would call attention to one issue in particular 
which has apparently considerable interest among Committee members. 
Chairman Nober referred to his conclusion that many ``captive 
shippers'' . . . ``believe the Board has inadequately performed . . . 
(the Board's) . . . core mission of ensuring that they have a forum for 
reaching a formal resolution of rate or service disputes. They feel 
that without a regulatory backstop, the transportation market for 
freight rail services does not properly function.'' He went on to say 
that he agreed with that conclusion to some extent. This would appear 
to create a major oversight issue and, therefore, one that must be 
addressed. At this point, I am not prepared to render a judgment as to 
why the Board has not been able to achieve its mission with respect to 
this or any other issue.
    9. Who are the stakeholders in the work of this department/agency?
    Shippers, railroad companies, railroad employees, taxpayers, 
industries and businesses which require raw materials/commodities that 
travel on the railroads, consumers in general, the military, certain 
trucking company, moving van, and non-contiguous ocean shipping company 
rate payers, certain intercity passenger bus companies and consumers 
and certain pipeline users not covered by FERC.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    Because of the adjudicatory nature of the STB, I consider the 
position to which I have been nominated to be comparable to the 
position of Federal Judge. The legendary Justice Oliver Wendell Holmes 
is credited with saying that a Supreme Court Justice should be ``a 
combination of Justinian, Jesus Christ and John Marshall.'' That is a 
very high standard. In my view, the term ``relationship'' is 
inextricably connected to this very high standard which goes well, 
beyond the ``good behavior'' which is expected of Federal judges. 
Indeed, the term ``relationship'' is troubling to me in this context. I 
would expect to have no ``relationship'' with any of the stakeholders. 
Rather, I would expect to have a ``responsibility'' to every 
stakeholder. That responsibility would certainly include thoroughness, 
timeliness, impartiality and integrity.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.

    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    I believe my responsibility in this regard is to work with my 
fe11ow Members and STB staff to clearly articulate a policy of 
accountability and vigilance to make sure that the taxpayers' money is 
spent wisely and that proper financial controls are in place to guard 
against mismanagement.

    (b) What experience do you have in managing a large organization?
    While at FedEx I was at one point a Managing Director of a team 
whose responsibility it was to locate, acquire, design, develop, 
operate and maintain operational facilities at major on-airport and 
off-airport locations. Our team was on a very aggressive development 
schedule with multiple projects in the U.S. and Europe. Our internal 
group numbered about 80 and we managed several hundred outside 
consultants, architects, engineers, construction firms, lawyers and 
other related professionals. That period experienced the most explosive 
growth in capital projects (other than aircraft acquisitions).
    12. The Government Performance and Results Act requires an 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.

    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    No organization will long survive without having objective and 
measurable goals that are constantly reviewed and updated to support 
the short and long term mission of the organization. Goals are 
essential to the proper alignment of interdisciplinary tactics and 
strategy and to the proper allocation of resources to accomplish the 
mission of the organization. Goals provide vision, accountability and 
feedback which enable management to adjust to changing circumstances 
and data to make better judgments in the future.

    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing or consolidation of 
departments and/or programs?
    In the proper exercise of its oversight responsibility, Congress 
would appear to have a full range of options available when an agency 
fails to meet its performance goals. Since agencies such as the STB are 
creatures of statute, the most severe action would be to completely 
abolish the agency and replace it with another regulatory body or 
deregulate the formerly regulated activity as was done in the case of 
the Civil Aeronautics Board in 1978. A more realistic approach would be 
to dearly identify specific areas of concern and request the agency to 
focus more resources on that activity and report more frequently on the 
progress of its efforts to bring the agency into compliance. This 
oversight might result in the Congress recognizing that more resources 
need to be authorized by the Congress or that certain resources need to 
be reallocated. In any event, there needs to be a frequent, open and 
candid exchange of views to avoid a situation where extreme measures 
are required by the Congress or the agency.

    (c) What performance goals do you believe should be applicable to 
your personal performance if confirmed?
    If confirmed, I will have a lot of catching up to do in order to 
prepare myself to be a fully functioning Board Member. In the early 
days of my term, I expect to be spending a considerable amount of time 
with Board staff familiarizing myself with the Board's active case load 
and the decisional criteria employed in such cases. I also expect to be 
on a vigorous schedule to better understand the industry by visiting 
with shippers, railroad companies and other stakeholders to learn 
firsthand about their activities. I fully expect to be closely working 
with my fellow Board Members to prepare a plan of action to accomplish 
these goals within a reasonable time. I expect to have the support and 
assistance of Chairman Nober and the STB staff in this regard.
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    No employee complaints have been brought against me. My management 
style can best be described as ``consultative/open door.'' I prefer to 
involve subordinates in the management process by encouraging their 
input into setting organizational goals and objectives and determining 
measurement tools so as to achieve ``buying'' during the process. I 
prefer performance review sessions twice yearly where there is an open 
exchange of views and an opportunity for subordinates to suggest ways 
to improve communications and a team spirit. Keeping the air clear of 
unspoken issues seems to lead to a more productive working environment.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience. include working with committees of 
Congress? If yes, please explain.
    As a former counsel to the Senate Aviation Subcommittee of the 
Committee on Commerce, Science and Transportation, I have had 
considerable experience working with the committee system on both sides 
of the Hill. While in the private sector I have had occasion to work 
with numerous committee staff over the years but very little in the 
last 10 to 12 years. In recent years, most of my work has been at the 
state level. Very recently, I had a client who was interested in some 
appropriations issues in the health and bio-sciences sector. I helped 
them develop a strategy and even accompanied them on two occasions when 
they had meetings in D.C. Those meetings were opportunities for the 
client to ''tell their story'' and appeal for funding.
    15. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    I believe I have an affirmative obligation to bring to his/her 
office any issue that I believe needs further review. And, I believe I 
have an affirmative obligation to cooperate fully with his/her office 
if asked.
    16. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    At this moment, I do not feel that I have a proper frame of 
reference to respond to this question.
    17. Within your area of control, wi1l you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    At this moment, I do not feel that I have a proper frame of 
reference to respond to this question.

    The Chairman. Thank you.
    Dr. Mulvey?

           STATEMENT OF FRANK MULVEY, STAFF DIRECTOR,

          U.S. HOUSE OF REPRESENTATIVES, COMMITTEE ON

               TRANSPORTATION AND INFRASTRUCTURE,

                   SUBCOMMITTEE ON RAILROADS

    Dr. Mulvey. Thank you very much, Mr. Chairman.
    I want to thank you for giving me the opportunity today to 
help you evaluate my qualifications to serve on the Surface 
Transportation Board.
    I want to thank Mr. Oberstar for his kind words and his 
strong support for my nomination. I also wish to express my 
thanks to Senator Daschle for recommending me, and to President 
Bush for nominating me for this position.
    Before continuing, I'd like to acknowledge a couple of 
people in the audience today who I've worked with over the 
years and/or will be working with in the future. First of all, 
John Scheib, who was a colleague of mine on the House 
Transportation and Infrastructure Committee, who is now Chief 
Counsel for the Board; Steve Gardner, who was an intern of mine 
on the T&I Committee and now works for Senator Carper on 
transportation issues; Phyllis Scheinberg, who was a colleague 
of mine at the General Accounting Office, who is now the Chief 
Budget Officer at the Department of Transportation; Jack Wells, 
a colleague of mine at GAO, who is now the Chief Economist at 
the Bureau of Transportation Statistics; and, of course, former 
Chairman Linda Morgan, whose position I've been nominated to 
succeed. Having had the opportunity to work with such good, 
competent people over the years is a large part of the reason 
why I'm here today.
    I've spent nearly my entire professional life working in 
transportation issues, and much of it has been in government 
service. As Mr. Oberstar said, for the past 4 years I've been 
the Minority Staff Director for both the Railroad Issues 
Subcommittee on the House T&I Committee, and for pipelines and 
transit on the Pipelines, Transit, and Highways Subcommittee. 
In that capacity, I was instrumental in getting several bills 
passed, including pipeline safety reform legislation and 
railroad retirement reform legislation. In both of those cases, 
I had the opportunity and good fortune to work with Roger 
Nober, who is now the Chairman of the STB. Sounds like it's a 
small world out there, but the experience that I got working 
with Roger and John Scheib tells me that we'll have no 
difficulties working together, and I think we can bring about 
some important changes and developments at the STB.
    Prior to joining the Committee, I served as Deputy 
Assistant Inspector General for Railroads, Transit, and Special 
Programs in the Office of the Inspector General at the 
Department of Transportation where I had the opportunity to 
work with Ken Mead and his staff, and appeared before this 
Committee on several occasions. Before that, I spent more than 
a dozen years with the General Accounting Office, again working 
primarily in transportation. While at GAO, I directed studies, 
as Mr. Oberstar indicated, on numerous transportation issues, 
covering all modes of transportation and all areas, including 
economics, safety, performance issues, et cetera. During those 
years, I directed more than a hundred reports and testimonies, 
and had the opportunity to testify before numerous 
congressional committees, including this one.
    In addition to my government service, I also gained 
valuable experience in transportation as the Vice President for 
research with the American Bus Association, and as a Programs 
Manager at the National Academy of Sciences' Transportation 
Research Board, where I directed several studies including one 
on the effectiveness of the 55 mile an hour speed limit.
    I also did considerable consulting while teaching, and one 
of my earliest consulting engagements, interestingly enough, 
was for this Committee. Back in 1975, I wrote a study for the 
Commerce Committee called ``Intercity Transportation for 
Passengers and Freight,'' which, I guess, indicated that I was 
going to be fairly broad-based in my transportation career.
    I believe my 30 years in working on problems and issues 
affecting virtually every mode of transportation qualifies me 
for the position as a Member of the Board. That experience has 
given me a deep appreciation of the criticality of our Nation's 
transportation system to our Nation's economic health and 
prosperity.
    I promise that if I am confirmed, I will do my best to 
balance the interest of shippers, railroads, and other affected 
parties to best serve the needs of the American people for 
efficient and affordable rail service. I will strive to ensure 
that rates are fair, reasonable, and sufficient to meet 
railroad's capital investment needs, and will do my best to see 
that rail services are adequate to meet shipper needs.
    Thank you, and I'm happy to answer any questions.
    [The prepared statement and biographical information of Dr. 
Mulvey follow:]

Prepared Statement of Francis P. Mulvey, Nominee to Be a Member of the 
                      Surface Transportation Board
    Mr. Chairman, Members of the Committee, I want thank you for giving 
me the opportunity to appear before you so that you may evaluate my 
qualifications to be a Member of the Surface Transportation Board. I 
want to thank my current boss, Mr. Oberstar for his kind words and 
strong support of my nomination. I also wish to express my thanks to 
Senator Daschle for recommending me and to President Bush for 
nominating me for this position.
    I have spent nearly my entire professional life working on 
transportation-related issues. Much of my career has been in government 
service. For the past 4 years, I have been Minority Staff Director for 
the Railroad Subcommittee and Minority Staff Director for Hazardous 
Materials and Pipelines for the Highway, Transit and Pipeline 
Subcommittee--both are Subcommittees of the House Committee on 
Transportation and Infrastructure. While in that position, I had the 
opportunity to help enact the pipeline safety and railroad retirement 
reform legislation. On both of these bills, I had the opportunity to 
work closely with Roger Naber, who is now the STB Chairman and John 
Scheib, who is now his Chief Counsel Those experiences indicate to me 
that we will be able to work well together at the STB.
    In addition, I have been very involved during the past 4 years in. 
the reauthorization of a number of Federal transportation programs 
including hazardous materials transportation, the Federal Railroad 
Administration's safety program, and of course the Surface 
Transportation Board. I also played a major role in drafting the 
Transportation and Infrastructure Committee's proposed high-speed rail 
funding legislation and legislation designed to provide funds to short 
line and regional railroads to help them upgrade their infrastructure.
    Prior to joining the Committee, I served as Deputy Assistant 
Inspector General for Railroads, Transit, and Special Programs in the 
Office of the Inspector General at the U.S. Department of 
Transportation. In that position, I directed the IG's first 
departmental wide program evaluation of Hazardous Materials 
Transportation programs. I also directed audits of a number of major 
transit capital projects, the Federal Railroad Administration's 
highway/rail grade crossing program, and the completion of the NEC 
high-speed rail infrastructure program. I also directed a review of the 
proposed acquisition of Conrail by the Norfolk Southern and CSX 
Railroads to determine whether they were ready to consummate the 
acquisition.
    Before joining the IG, I spent a dozen years with the U.S. General 
Accounting Office, primarily with the Transportation Group, although I 
spent my final two years with the agency working on Social Security and 
pension reform issues. At GAO, I directed numerous studies on such 
diverse topics as the state of competition in the airline industry in 
the aftermath of deregulation, the competitive challenges faced by U.S. 
airlines in the international marketplace, factors affecting the 
competitiveness of the railroad industry, highway safety, high speed 
rail and Maglev, Canadian and Mexican trucking, and many other 
transportation subjects. During those years, I directed the preparation 
of more than 100 GAO reports and congressional testimonies on a wide 
variety of transportation issues. I was privileged to appear before 
this and other congressional committees on numerous occasions 
accompanying the Transportation Issue Area Director.
    In addition to my government service in transportation, I also 
gained valuable experience in the transportation area as Vice President 
for Research at the American Bus Association, Programs Manager at the 
Transportation Research Board (where I directed a review of the 
effectiveness of the 55 mph speed limit) and as an expert consultant 
while teaching economics at universities in Ohio and Massachusetts. The 
projects on which I consulted ranged from passenger rail and personal 
mobility studies for the National Transportation Policy Study 
Commission to analysis of the economic impacts from extending the Great 
Lakes navigation season for the U.S. Army, Corps of Engineers. In fact, 
one of my earliest consulting projects was for this Committee through 
Harbridge House (now part of Price Waterhouse Coopers Lybrand). I 
authored the passenger sections of the Commerce Committee report, 
Intercity Transportation for Passengers and Freight, 1975).
    I began my professional career in transportation when I began 
researching my doctoral thesis on the economics of intercity rail 
passenger service in America. I was able to secure an internship with 
the Federal Railroad Administration in 1972-73 and thereby began a 
lifelong involvement in freight railroad issues.
    Therefore, I believe that my 30-plus years working on problems and 
issues affecting virtually every mode of transportation in a variety of 
capacities qualifies me for the position of Member of the Surface 
Transportation Board. That experience has also given me a deep 
appreciation of the criticality of our Nation's transportation system 
to our country's economic health and prosperity. In many ways, 
America's transportation system is the envy of the world. But we did 
not achieve this status overnight.
    Our nation was blessed with many favorable geographic 
characteristics, excellent natural harbors and an extensive navigable 
system of rivers and waterways, but there were also many geographic 
challenges that had to be overcome as we settled the continent. The 
railroads, of course, played a vital role in overcoming these barriers 
and in the economic development of the United States. For nearly 100 
years, the railroad was the dominant mode of freight and passenger 
transportation. But, because of monopolistic abuses, in 1887 the 
Congress decided that the Federal government needed to regulate the 
Nation's railroads. Regulation of railroad rates and practices grew 
more far reaching in the first half of the 20th Century and economic 
regulation was extended to other forms as transportation as well. By 
1940, the Interstate Commerce Commission was responsible for the 
economic regulation of rail, motor, water and oil pipeline transport, 
while the Civil Aeronautics Administration was responsible for 
regulating the Nation's airlines.
    The American decision to regulate privately owned transportation 
companies differs from the road taken by most other developed nations. 
Typically, other nations elected for government ownership of the 
transport sector--especially railroads and airlines. Over the long 
term, both public ownership and strict economic regulation proved 
problematic and while other nations began privatizing, the U.S. began 
deregulating the various modes of transportation. Trucking and aviation 
were completely deregulated, but the Congress elected to retain some 
regulation of the nations' railroads. The Interstate Commerce 
Commission was terminated in 1995 and replaced with the Surface 
Transportation Board whose mission is to balance the interests of 
shippers and railroads in situations where the market cannot be 
expected to always provide fair and reasonable rates.
    The traffic over which the STB exercises regulatory authority is 
not inconsequential--coal, grain, chemicals, forest products, ores--are 
all vitally important to the Nation's economy. These products must move 
at reasonable rates if we are to maintain our global competitiveness. 
At the same time, the railroads must earn an adequate rate of return so 
that they may make the necessary investments in plant and equipment so 
that they can provide safe, efficient, and quality service to all rail 
shippers. Indeed, in the coming years we will need to rely more and 
more on our Nation's railroads if we are to address the growing highway 
congestion problem. This will require substantial capital investment.
    I promise that if I am confirmed that I will do my best to balance 
the interests of shippers, the railroads, and other affected parties to 
best meet the needs of the American people for efficient and affordable 
rail service. Further, I will strive to ensure that rates are fair, 
reasonable, and sufficient to meet railroad capital investment needs 
and do my best to see that rail services are adequate to meet shipper 
needs.
    Thank you and I will be happy to take any questions.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nicknames used.)
    Francis P. Mulvey (Frank).
    2. Position to which nominated: Commissioner, Surface 
Transportation Board.
    3. Date of nomination: November 17, 2003.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.
        Office: 2251 Rayburn HOB, Washington, D.C. 20515.

    5. Date and place of birth: May 5, 1944; New York City (Astoria, 
Queens), New York.
    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to Petra Karolina Mulvey (maiden name: Petra Karolina 
Huntley).
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.)
    Son, Conor Francis Mulvey, 24 years old.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.)

        High School: St. Francis Xavier 9/58-6/62

        College: New York University, 9/62-6/66, BS in economics, 6/66

        Graduate School: University of California at Berkeley, 1/67-6/
        68, MA in Economics, 8/68

        Graduate School: Washington State University, 9/70-6/72, PhD in 
        economics,
        6/74

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

        Staff Director, Railroad Subcommittee, Committee on 
        Transportation and Infrastructure, U.S. House of 
        Representatives, Washington DC, (Also, serve as Staff Director 
        for Subcommittee on Highways and Transit responsible for 
        pipeline safety and hazardous materials issues.) 2/00 to 
        present

        Deputy Assistant Inspector General for Rail, Transit, and 
        Special Programs, U.S. Department of Transportation, Washington 
        DC 3/99-2/00

        Adjunct faculty member, University of Maryland, RH Smith School 
        of Business and Public Policy, College Park, MD 9/92 to present

        Assistant Director, U.S. General Accounting Office, Washington, 
        D.C. 10/85-
        3/99

        Director for Economic Research, NY State Legislative Commission 
        on Solid Waste Management, Albany, NY 11/84-10/85

        Programs Manager, National Academy of Sciences, Transportation 
        Research Board, Washington, D.C. 3/83-10/84

        Vice President for Research, American Bus Association, 
        Washington, D.C., 
        11/82-3/83

        Assistant Professor, Department of Economics, Northeastern 
        University, Boston, MA, 9/77-1/82

        Driver, Yellow Cab Company, Boston, MA, 7/77-8/77

        Assistant Professor, Department of Economics, Wheaton College, 
        Norton, MA, 9/75-6/77

        Assistant Professor, Department of Economics, Bowling Green 
        State University, Bowling Green Ohio, 9/73-6/75

        Economist, U.S. Department of Transportation, Washington, D.C., 
        7/72-6/73

        Teaching Assistant, Department of Economics, Washington State 
        University, Pullman, WA, 9/70-6/72

        Instructor, Golden Gate University, San Francisco, CA, 6/71-9/
        71; 1/67-9/69 (part time)

        Supervisor, Claims, Continental Insurance Co., San Francisco, 
        CA 5/70-9/70

        Driver, Yellow Cab Company, San Francisco, CA 3/70-5/70

        Management Consultant, George S. May Co., San Francisco, CA 10/
        69-3/70

        Economist, California Blue Cross/Blue Shield, San Francisco, CA 
        10/68-12/68

        Claims Adjuster Trainee, Metropolitan Life Insurance Co San 
        Francisco, CA
        9/66-12/66

        Researcher, NASA/Oakland Budget Project, Berkeley, CA 6/66-9/66

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)

        Consultant to New York State Legislative Commission on Solid 
        Waste Management, 10/85-12/89

        Consultant on Rail Issues, U.S. General Accounting Office, 
        Washington, D.C., 3/85-10/85

        Consultant, Transportation and Economic Research Associates 
        Study for U.S. Army Corps of Engineers on Extending the Great 
        Lakes Navigation Season, Arlington, VA, 3/79-8/79

        Consultant, National Transportation Policy Study Commission, 
        Washington, D.C., 8/77-3/79

        Consultant, Harbridge House Study on Intercity Transportation 
        for Passengers & Freight for U.S. Senate Commerce Committee, 
        Boston, MA 9/75-1/77

        Consultant, Wisconsin State Department of Transportation, 
        Madison, Wisconsin 2/74-6/75

    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.) None.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

        Transportation Research Forum (President Washington Chapter, 
        Vice-President, Programs Washington Chapter, Council Member for 
        National Council and Vice President for Public Affairs)

        Transportation Research Board (Member Committee on Aviation 
        Economics, Committee on Travel and Tourism Research Needs, 
        Panel on ADA Compliance for Intercity Busses Committee on FA 
        Scholarship Awards)

        American Economics Association

        Society of Government Economists

        International Aviation Club

        Pi Lambda Phi (college fraternity)

    13. Political affiliations and activities:

    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.
    None.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    None.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)

        1999--Comptroller--General's Team Award

        1998--Assistant Comptroller--General's Award, HEHS Division

        1997--Special Recognition for Outstanding Performance HERS 
        Division

        1997--Special Commendation Award HEHS Division

        1995--Special Commendation Award RCED Division

        1994--Special Commendation Award RCED Division

        1994--Special Recognition for Outstanding Performance RCED 
        Division

        1994 Outstanding Team Award RCED Division

        1991--Special Recognition for Outstanding Performance RCED 
        Division

        1989--Special Recognition for Outstanding Performance RCED 
        Division

        1988--Outstanding Achievement Award RCED Division

        1962--New York State Regents' Scholarship and Incentive Award

        1962--Full Tuition Scholarship New York University

        1958--U.S. Post Office Holy Name Society Scholarship to St. 
        Francis Xavier Military Academy

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)

        ``International Airline Alliances: A Study of Codesharing's 
        Impact on Airlines and Consumers'' (with T. Hannegan), Journal 
        of Air Transport Management, London, Spring 1996.

        Batteries in New York's Municipal Solid Waste Stream: A Report 
        to the Commissioner of the New York State Department of 
        Environmental Conservation, SS&B--Taconic Resources, Albany, 
        NY, September 1988

        ``Demand and Cost Considerations in Domestic and International 
        Recycling Programs'', Waste Age, Washington, D.C. 1987

        The Economics of Recycling, New York State Legislative 
        Commission on Solid Waste Management, Albany, NY, 1986

        ``New Directions in Materials Reclamation'', Journal of Natural 
        Resources and Technology, Vol. 14, No. 4, University of 
        Pennsylvania, Philadelphia, Pennsylvania, December 1985

        The 55 mph Speed Limit: A Decade of Experience (with D. Kulash 
        and S. Godwin), National Academy of Sciences, National Research 
        Council, Washington, D.C., September 1984

        The Safety Benefits and Costs of Using Citizen-Band Radios on 
        Intercity Buses (with L. Griffith and M. Heckard), National 
        Academy of Sciences, National Research Council, Washington 
        D.C., August 1984

        ``Performance Trends of Small Intercity Motor Coach Firms 1972-
        1981'', Papers and Proceeding of the Transportation Research 
        Forum, New Orleans, Louisiana, October 1982

        ``Public Agencies and Private Carriers: Competition or 
        Cooperation'', Private Sector Role in Public Transportation, 
        Transportation Research Board, Washington, D.C., August 1982

        ``Unfair Competitive Marketing Practices in Intercity Surface 
        Transportation'', Papers and Proceedings of the Transportation 
        Research Forum, San Francisco, California, November 1981

        Amtrak: The First Decade, University of Iowa Press, Iowa City, 
        Iowa, 1981

        A Taxpayer's Perspective on Amtrak, National Taxpayers' Union, 
        Washington, D.C. July 1981

        ``Amtrak Versus Intercity Bus'', Challenge, Vol. 23, No.3, 
        July/August 1980

        ``Passenger Transportation in the Year 2000'', State 
        Transportation Issues and Actions, Special Report No. 189. 
        Transportation Research Board, Washington, D.C. 1980

        ``Interurban Helicopter Services: A Comment'', Journal of the 
        New England Business and Economics Association, Boston, 
        Massachusetts, 1980

        ``Amtrak: A Cost-Effective Approach'', Transportation Research, 
        Vol. 13 October 1979

        Intermodal Impacts of Great Lakes/St. Lawrence Seaway System 
        Season Extension: A Report to the U.S. Army Corps of Engineers, 
        Transportation and Economic Research Associates, Arlington, 
        Virginia, 1979

        Amtrak: An Experiment in Rail Service, National Transportation 
        Policy Study Commission, Washington, D.C., September 1979

        ``Capital Formation in the Airline and Railroad Industries'', 
        National Transportation Policy Study Commission Special Report 
        No.1: Issues in Transportation, Washington, D.C., May, 1978

        ``Consolidation of Transportation Regulatory Agencies'', 
        National Transportation Policy Study Commission Special Report 
        No.1: Issues in Transportation, Washington, D.C., May, 1978

        Intercity Domestic Transportation for Passengers and Freight: A 
        Report to the U.S. Senate Committee on Commerce, Science, and 
        Transportation (with A. LaMond), Washington, D.C. 1977

        The Northeast Corridor High Speed Rail System: Selected Impacts 
        on Alternative Modes--a Report to the U.S. DOT Transportation 
        Systems Center (with D. Hayman and G. O'Donohoe), Harbridge 
        House, Boston, Massachusetts, 1975

        The Future of Rail Passenger Services in Wisconsin, Wisconsin 
        State Department of Transportation, Madison, Wisconsin, August, 
        1975

        The Economic Future of Amtrak (doctoral dissertation), 
        Washington State University, Pullman Washington, August 1974

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    In the past several years I have addressed numerous groups on the 
House Transportation and Infrastructure Committee's legislative agenda. 
However, all of these presentations were extemporaneous and none were 
formal. Therefore, there are no written copies.
    17. Selection:

    (a) Do you know why you were selected for the position to which you 
have been nominated by the President?
    I was selected by the President on the recommendation of Senator 
Daschle, Senate Minority Leader, for the minority position on the 
Surface Transportation Board.

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    Virtually my entire professional life has been in the area of 
transportation. I have taught transportation economics at both the 
graduate and undergraduate levels. I am currently Staff Director, House 
Railroad Subcommittee, the congressional committee that authorizes and 
oversees the Board. As Deputy Assistant Inspector General at the 
Department of Transportation I was responsible for all IG audits of the 
freight railroad industry. At the U.S. General Accounting Office I 
directed a number of studies of the railroad industry. As a doctoral 
student at Washington State University, one of my concentrations was 
Transportation Economics.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate?
    Yes, I have notified both the House Transportation Committee and 
the University of Maryland that I will resign after I am confirmed by 
the Senate.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, please explain.
    I have no plans for outside employment during my service.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization?
    I have no plans, commitments or agreements to resume any 
relationship with prior firms, associations, or organizations.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?
    No one has made such a commitment.
    4. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?
    I expect to serve my full 5-year term.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    I have no financial arrangements with current employers except 
continuation of my current salaries until I assume my new position.
    2. Indicate any investments, obligations, liabilities, or other 
relationships, which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I have no investments or obligations that could involve potential 
conflicts of interest.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    I have had no business relationships that could potentially involve 
conflicts of interest.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As a congressional staff member, it is my job to draft legislation 
and work to secure its passage or to defeat proposed legislation that 
the Ranking Member opposed. With respect to the position for which I am 
being considered, the Ranking Member has introduced legislation to 
reauthorize the Board and to make changes in its operations. I have 
worked to secure the passage of the Railroad Retirement Reform Act and 
The Pipeline Safety Act of 2002.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    I have no conflicts that require resolution.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?
    I agree to have the ethics officer of the Surface Transportation 
Board offer written opinions regarding any potential legal impediments 
or conflicts regarding my appointment.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    I have never been cited, disciplined, or been the subject of a 
complaint for a breach of ethics.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain.
    When I was 19 years old I was cited for climbing on a monument in 
Washington Square Park in Manhattan following a party. As I recall, the 
judge dismissed the charges on learning it was not a political 
demonstration.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I was sued following a minor traffic accident (no damage to either 
vehicle) after the other party alleged back injuries. Because the other 
party had just had back surgery, he successfully collected (I believe 
$20,000) from my insurance provider.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    No, never.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I have no additional information to offer.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    As a congressional staff member and as a former Deputy Assistant 
Inspector General and GAO Assistant Director, I am very sensitive to 
the need for timely compliance with deadlines for congressionally 
requested information and will ensure my agency complies.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    At the General Accounting Office, I was party to several 
confidentiality agreements and I will ensure the protection of whistle 
blowers and other witnesses.
    3. Will you cooperate in providing the committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    I will cooperate fully with the Committee in providing witnesses, 
technical experts, and other career employees with knowledge of 
interest to the Committee.
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress.
    As a congressional staff member, I often monitored the rules and 
regulations issued by the Federal Railroad Administration, the Research 
and Special Programs Administration, and the Surface Transportation 
Board to ensure that they were consistent with the letter and spirit of 
the law. Because I have been on the other side of the fence on this 
issue, I intend to work closely with those who drafted the legislation 
directing the rules and regulations to ensure that we are meeting the 
legislative intent.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    I am very willing to appear before congressional committees and 
have done so numerous times in the past. While I was with the GAO, I 
drafted more than 50 congressional testimonies for our witnesses on a 
wide variety of transportation, Social Security and pension issues. In 
most cases, I accompanied the witness to the table and typically I 
answered questions from committee members. Before joining government 
and still an academic, I testified before congressional committees on 
several occasions as an expert witness.
                  f. general qualifications and views
    l. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    I believe I can state without reservation and without taking 
anything from the fine individuals who have served on the Board 
previously, that my background is more directly relevant, of longer 
duration, and more detailed than any prior appointee. I have nearly 30 
years as transportation professional. I have worked on economic and 
regulatory issues for virtually every mode of transportation. I 
directed numerous GAO studies monitoring the effects of airline 
deregulation. I am considered a national expert on Amtrak, high-speed 
rail, transportation competitive analysis, and other transportation-
related topics.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    I wish to serve because I believe I can make an important 
contribution to the future of intercity freight and passenger 
transportation in America. I have worked in the transportation policy 
arena as a consultant, auditor, congressional staffer, and as an 
academic. I would like now to be involved as a decisionmaker in 
resolving some of the difficult issues facing our Nation's 
transportation system, especially our rail network. I believe I bring 
the skills and the experience needed to do the job well.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    During the first two years I will serve in this position, the 
Nation will celebrate the 25th anniversary of the Staggers' Rail Act 
and the 10th anniversary of the creation of the Surface Transportation 
Board. I believe that these anniversaries should be marked by 
reflection on and reassessment of the policies, processes,, and 
outcomes to date. I want to work closely with my fellow Board members 
and the agency staff to not only undertake an internal evaluation of 
the STB's role and practices, but to identify outside parties that 
could provide an objective review of the agency.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    The Surface Transportation Board is a quasi-judicial agency and I 
am not a lawyer. Although as a congressional staffer, I helped draft 
legislation, I have not had formal legal training. However, my training 
is in economics, and the Board also must determine complex economic 
issues at arriving at their decisions. I will have legal counsel 
assigned to me to assist in working through legal nuances and I plan to 
intensely study the agency's prior decisions.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    I am a firm believer in the free market economy. One of my fields 
of graduate study, and a subject about which I had the opportunity to 
teach, was Comparative Economic Systems. The clear message from that 
field is that private markets generally lead to an efficient allocation 
of society's resources-unless there is market failure. Market failure 
comes about whenever reliance on the private sector would give us too 
little (or too much) of a good or service. Private markets can provide 
education, but not universal education. We can't rely on the market for 
public goods such as national defense, police, and fire services. Also, 
when externalities (e.g., air or water pollution) are involved relevant 
on the free market alone could lead to sub-optimal outcomes. When 
externalities are present, there is a role for government. I believe 
that the public sector's role also extends to establishing the rules 
under which market participants can act. In general, these rules are 
designed to ensure that people are treated fairly and that the 
interests of those with less power are defended. Because I believe in 
free market solutions whenever possible, I also believe that 
competition is the sine qua non for the success of the market system. 
If monopolies are established or if there are significant barriers to 
market entry, competition will be thwarted and the benefits of the free 
market system will be lost. Finally, I also believe that when problems 
arise it is generally best that they be dealt with directly. Roundabout 
solutions nearly always make matters worse.
    With respect to the standards for terminating an agency, I believe 
that there are two basic principles: (1) the agency's mission is no 
longer relevant because circumstances have changed or the agency might 
have achieved its purpose and (2) the agency has simply failed to 
accomplish its mission. In the first case, I think it is important to 
establish measures of success and communicate those as goals to agency 
managers. In the second case, I think the agency and its personnel need 
to be made aware of perceived failings and be given the opportunity to 
correct the problems.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    The Surface Transportation Board assumed the residual 
responsibilities of the Interstate Commerce Commission. While the other 
modes of transportation (truck and air) were almost entirely 
deregulated, the Congress elected to retain a regulatory structure to 
oversee the railroad industry. That structure was, however, much 
relaxed to give railroads greater freedom to act as Congress recognized 
that a significant proportion of rail traffic was not subject to the 
discipline of market competition and preserved some regulatory 
jurisdiction over railroad rates and service. I believe that agency's 
primary mission is to balance the needs of the railroads to earn an 
adequate return with the need of shippers for reliable and affordable 
rail service.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    I believe the three top challenges facing the Surface 
Transportation Board are: addressing the complaints of captive 
shippers; assessing the pluses and minuses of further industry 
consolidation; and finding ways to make the Board's resources 
accessible to smaller shippers. First, there is clearly mounting 
pressure for a legislative response to the concerns of captive 
shippers. S. 919 calls for major changes in the relationship between 
the STB and the railroad industry. The railroads claim that the changes 
advanced in this legislation would destroy the industry. They would not 
be able to earn sufficient revenues to invest in their infrastructure 
and, as a result, service would decline. Shippers claim without such 
changes they will be forced out of business or will need to relocate, 
perhaps overseas. With respect to industry consolidation, the industry 
has already consolidated from more than 20 Class I carriers in 1980 to 
only 4 major and one minor Class I U.S. carriers and 2 Class I Canadian 
carriers with U.S. subsidiaries. Further consolidation could lead to a 
North American duopoly or a triopoly. Such an outcome might create 
pressure to truly re-regulate the industry. Finally, I believe the 
Board's authority must be available to all shippers regardless of size. 
The existing processes make it relatively expensive for out small 
shippers to bring complaints before the Board.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    I do not believe the Board has failed to achieve its mission 
although some would argue that it has not correctly balanced its 
objectives.
    9. Who are the stakeholders in the work of this department/agency?
    The principal stakeholders are the railroads, shippers, rail labor, 
and the American people.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    A member of the Surface Transportation Board adjudicates disputes 
between railroads and shippers, oversees the terms and conditions of 
mergers, and performs other quasi-judicial functions. Therefore, the 
Board member must relate to stakeholders in much the same manner as 
judge--he or she must be fair, impartial, and maintain an arms length 
relationship. The member must balance the interests of the stakeholders 
based on the available facts submitted in the record. Objectivity, 
impartiality, and attention to the public interest are the bases for 
Board member behavior.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.

    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    I believe that, as a member of the board, I am fully responsible 
for ensuring that proper management and accounting controls are in 
place. As an Assistant Director at the U.S. General Accounting Office 
and as a Deputy Inspector General in the Auditing Division of the DOT's 
Inspector General's office, I am familiar with the requirements of the 
Chief Financial Officer's Act and will strive to uphold the highest 
standards of financial integrity.

    (b) What experience do you have in managing a large organization?
    I have not managed an organization quite as large as the STB (130+ 
staff), but I managed a group of over 50 professionals at the 
Department of Transportation and I regularly had as many as 20 
professionals reporting to me at the General Accounting Office.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.

    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    Performance goals are vitally important in monitoring progress 
toward achieving an agency's mission. It is important that the overall 
agency performance goals be part of the expectations setting process 
for all employees. For example, while I was at GAO, we had a highly 
structured system of setting goals for individual staff and for 
providing periodic feedback. The result was that staff knew how well 
they were performing, what kind of merit increase or bonus they could 
expect, and what they needed to do to correct deficiencies. We could 
identify whether any additional training was necessary and, sometimes, 
whether an individual was assigned to the right projects. Moreover, 
periodic assessment and feedback also give supervisors the opportunity 
to provide positive feedback to superior staff--thereby further 
motivating them to give their best.

    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?
    If an agency fails to achieve its performance goals, the first 
question that should be answered is why it hasn't? Are the goals 
achievable? Are they appropriately defined? If achievable and defined 
properly, then the next step would be to decide whether the right 
management team is in place and whether sufficient and appropriate 
resources are available.

    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    I believe that my performance goals should include the timely 
resolution of cases brought before the Board, evidence of thoughtful 
consideration and analysis in arriving at decisions, efficient 
management of assigned staff and agency resources, and leadership in 
helping direct the agency toward rigorous analysis of evidence to reach 
conclusions consistent with congressional intent.
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    Perhaps because I have spent many years in academia, I have adopted 
a philosophy that a supervisor should be a mentor to his or her 
employees. But, I also strongly believe in providing individuals with 
as much responsibility as they can handle and I resist micromanaging 
them. I have usually been pleased with the results. On the few 
occasions when an employee has not done as well as I would have liked, 
I try to recognize that I share the responsibility for the sub par 
performance. In those cases, I would work more closely with the 
individual to help them attain the skills or confidence needed for the 
task. In the 35 years that I have been in supervisory positions, I 
never had an employee file a complaint against me.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    I have always had an excellent relationship with congressional 
staff and Members. For the past 3\1/2\ years, I have served as Staff 
Director for the Railroad Subcommittee of the House Committee on 
Transportation and Infrastructure and as Staff Director for Pipeline 
and Hazard us Materials Issues for the Subcommittee on Highways, 
Transit, and Pipelines. I also spent nearly 14 years as an Assistant 
Director at the U.S. General Accounting Office, the principal 
investigative arm of the Congress. At GAO, I directed the preparation 
of more than 100 studies and congressional testimonies before both 
House and Senate Committees. The subjects covered ranged from airline 
competition, highway safety, and railroad competitiveness to Social 
Security and pension reform. Virtually all of our work at GAO was 
performed at the request of either Chairman or Ranking Members of 
congressional committees and so I worked closely with the appropriate 
staff in undertaking the project. It was not unusual for me to be 
overseeing as many as a dozen projects at a time for several different 
committees.
    15. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    Because I was the Deputy Assistant Inspector General at the U.S. 
Department of Transportation for Rail, Transit, and Special Programs, I 
was the Deputy IG who had oversight responsibilities for the Surface 
Transportation Board. I firmly believe that agencies and departments of 
the Federal government have a duty to be responsive to requests for 
data and information so that the IG can conduct an audit or 
investigation.
    16. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    I believe that the Nation needs a healthy and prosperous railroad 
industry in order that it can accommodate the projected growth in 
freight and passenger traffic in the coming years. Unfortunately, at a 
time when more investment in the industry is needed, the industry's 
infrastructure is shrinking. Congress needs to consider what must be 
done to ensure that the rail infrastructure will be there to meet 
future needs. We are also approaching the 25th anniversary of the 
Staggers Rail Act of 1980, which greatly changed the rail regulatory 
framework, and the 1Oth anniversary of the ICC Termination Act, which 
created the Surface Transportation Board. I believe this is an 
appropriate time for an independent assessment of how well the current 
system has worked and what legislative changes might be desirable to 
make it work better.
    17. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    To the best of my knowledge I do not believe that I have say over 
much, if any, discretionary spending by the agency. To the extent that 
I do, I pledge that such spending will always be done I an open manner 
through fair and impartial criteria. I pledge to work with the agency's 
ethics officer, the Inspector General, and the GAO to ensure that such 
procedures are in place.

    The Chairman. Thank you very much.
    I want to thank all the witnesses. As you can see by the 
large turnout, there's a great deal of controversy associated 
with these nominations.
    [Laughter.]
    The Chairman. But please know that in the view of all 
Members of this Committee your appointments are very important 
to us and to the American people.
    Ms. Keenum, as we speak there's amendments on the floor 
concerning curtailment of free trade, on closing open markets, 
and outsourcing of jobs, so I think you have some significant 
responsibilities that you are assuming.
    Dr. Combs, I think you will face budgetary and program 
pressures that probably we have not experienced in many years 
as we face looming deficits of trillions of dollars, and so you 
have a very tough decisionmaking process and some heavy 
responsibilities.
    Dr. Mulvey and Mr. Buttrey, as you know, the Surface 
Transportation Board has been moribund for some period of time, 
and with the addition of both of you, you're going to have a 
very large backlog of issues to address, and I hope that you 
will work together to address the ongoing concerns that, in 
some ways, at least to me, are almost insoluble. We continue to 
be gridlocked here on the Committee and in the Congress on 
issues such as captive shipper problems and others, so I hope 
you can help us sort out some of these issues, as Dr. Mulvey 
pointed out, balancing the fact that we have to have a viable 
railroad industry, and, at the same time, we have to take in 
consideration the rights and the need that consumers be treated 
in a fair and equitable fashion.
    So I welcome all of you. We will mark up your nominations 
on Tuesday morning, and try to get them to the Senate this week 
before we go out of session, as we are want to do every week or 
two.
    I thank you very much. Again, congratulations to you and to 
your families.
    This hearing is adjourned.
    [Whereupon, at 3:05 p.m., the hearing was adjourned.]

                                  [all]

                  This page intentionally left blank.




      
</pre></body></html>
